<html>
<title> - AN EXAMINATION OF THE POTENTIAL FOR A DELEGATE FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 AN EXAMINATION OF THE POTENTIAL FOR A DELEGATE FROM THE COMMONWEALTH 
                    OF THE NORTHERN MARIANA ISLANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 25, 2004

                               __________

                           Serial No. 108-85

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-123                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 25, 2004.....................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     4
        Prepared statement of....................................     5
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona.................................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     6

Statement of Witnesses:
    Adriano, Hon. Joaquin G., President, The Senate, Fourteenth 
      Northern Marianas Commonwealth Legislature.................    27
        Prepared statement of....................................    28
    Babauta, Hon. Juan N., Governor, Commonwealth of the Northern 
      Mariana Islands............................................    17
        Prepared statement of....................................    19
    Cohen, David B., Director, Office of Insular Affairs, U.S. 
      Department of the Interior.................................     7
        Prepared statement of....................................     9
    Tenorio, Hon. Pedro (Pete) A., Resident Representative to the 
      United States for the Commonwealth of the Northern Mariana 
      Islands....................................................    21
        Prepared statement of....................................    23
    Van Cleve, Ruth G., Retired, Former Assistant Solicitor for 
      Territories, and Director, Office of Territories, U.S. 
      Department of the Interior.................................    36
        Prepared statement of....................................    38

 
 OVERSIGHT HEARING ON ``AN EXAMINATION OF THE POTENTIAL FOR A DELEGATE 
        FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS''

                              ----------                              


                      Wednesday, February 25, 2004

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:40 a.m., in 
Room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo [Chairman of the Committee] presiding.
    Present: Representatives Pombo, Miller, Christensen, 
Bordallo and Flake.

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The hearing will come to order.
    We are fortunate to have with us today individuals who have 
taken the time to fly thousands of miles from their islands in 
the North Pacific Ocean. They should be able to help us better 
understand the relationship both Congress and the Department of 
the Interior have with the Commonwealth of the Northern Mariana 
Islands (CNMI).
    Our full committee oversight hearing today will focus on an 
issue of great importance to the United States citizens living 
in the CNMI. We look to take on a frank examination of the 
issues surrounding the potential for the CNMI to be provided a 
nonvoting Delegate to the House of Representatives.
    I had the unique opportunity to visit the CNMI and other 
U.S. insular areas with my fellow committee members, as well as 
Secretary Gale Norton, in January. If nothing else, let us just 
say I now fully understand the difficulties in traveling all 
the way to Washington, as some of those who will testify today 
have done. I think most members have finally caught up with 
their sleep after returning about a month ago.
    When discussing the issue of a nonvoting Delegate for a 
U.S. territory, the historical context in which we analyze the 
need as it applies specifically to the CNMI is important. 
First, we should consider the long history our country has with 
the Northern Mariana Islands. The direct importance of the 
strategic location of these islands during World War II will 
never be forgotten. Our Congressional delegation was able to 
see firsthand the remnants of the Japanese fortification in 
Saipan when we visited. I was also able to view the island of 
Tinian, where the Enola Gay departed in 1945 for Hiroshima, 
Japan, bringing with it an end to the war soon thereafter. The 
strategic importance of this area can be seen daily when in the 
CNMI, with two military supply ships in the waters off the 
coats of the capital.
    Consideration of a nonvoting Delegate should also take into 
account the historical context in which other current non-State 
areas of the United States were provided a Delegate in 
Congress. This includes the territories represented by other 
members of this committee as well as the District of Columbia. 
It is my hope that our witnesses can explain this background 
for us to better weigh the positives and negatives of taking 
any action in Congress.
    Our witnesses today should be able to give us a strong 
sense of the current socioeconomic progress and the hurdles 
that remain in CNMI. Most members of this committee can recall 
the controversies of the 1990s, and it is clear some may want 
to hear about any changes that have taken place. Still, we hope 
not to return to the days of overly politicizing this issue, as 
it remains somewhat separate from the application of the 
covenant the U.S. Government signed and approved in 1976, as 
seen in P.L. 94-241.
    A thoughtful discussion today should help us highlight the 
positives and negatives and fully understand any areas that 
need to be addressed. Both the House and the Senate have 
introduced multiple bills over the past decade on this issue, 
though few attempts have been made a seriously examining the 
issues before legislation is introduced and considered.
    We have panelists here today which should be able to give 
this committee a thoughtful viewpoint as our witnesses 
represent the Administration, the local CNMI government, as 
well as someone that has been intimately involved with U.S. 
insular affairs for many years. Past attempts at moving 
legislation regarding a nonvoting Delegate from the CNMI left 
us with few results. Our oversight hearing today should be a 
fruitful examination, helping us to avoid hasty actions that 
will prevent properly weighing all facets of this issue in our 
current economic and social climate.
    I thank the witnesses for coming today and I look forward 
to their testimony.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    On behalf of the full Committee, I would like to welcome everyone 
in attendance today and specifically our witnesses. We are fortunate to 
have with us today individuals that have taken the time to fly 
thousands of miles from their islands in the North Pacific Ocean. They 
should be able to help us to better understand the relationship both 
Congress and the Department of the Interior have with the Commonwealth 
of the Northern Mariana Islands (CNMI).
    Our full Committee oversight hearing today will focus on an issue 
of great importance to the United States citizens living in the CNMI. 
We look to take on a frank examination of the issues surrounding the 
potential for the CNMI to be provided a nonvoting Delegate to the House 
of Representatives.
    I had the unique opportunity to visit the CNMI and other U.S. 
insular areas with my fellow Committee members as well as Secretary 
Gale Norton in January. If nothing else, let's just say I now fully 
understand the difficulties in traveling all the way to Washington, as 
some of those who will testify today have done. I think most Members 
have finally caught up with their sleep after returning about a month 
ago.
    When discussing the issue of a nonvoting Delegate for a U.S. 
territory, the historical context in which we analyze the need as it 
applies specifically to the CNMI is important. First, we should 
consider the long history our country has with the Northern Mariana 
Islands. The direct importance of the strategic location of these 
islands during World War II will never be forgotten. Our Congressional 
Delegation was able to see first hand the remnants of the Japanese 
fortification in Saipan when we visited. I was also able to view the 
island of Tinian, where the Enola Gay departed in 1945 for Hiroshima, 
Japan, bringing with it an end to the War soon thereafter.
    The strategic importance of this area can still be seen daily when 
in the CNMI, with two military supply ships in the waters off the coast 
of the capital.
    Consideration of a nonvoting Delegate should also take into account 
the historical context in which other current non-State areas of the 
United States were provided a Delegate in Congress. This includes the 
Territories represented by other Members of the Committee, as well as 
the District of Columbia. It is my hope that our witnesses can explain 
this background for us to better weigh the positives and negatives of 
taking any action in Congress.
    Our witnesses today should be able to give us a strong sense of the 
current socioeconomic progress and hurdles that remain in the CNMI. 
Most Members on this Committee can recall the controversies of the 
1990's, and it is clear some may want to hear about any changes that 
have taken place. Still, we hope not to return to the days of overly 
politicizing this issue, as it remains somewhat separate from the 
application of the Covenant the U.S. Government signed and approved in 
1976, as seen in Public Law 94-241.
    A thoughtful discussion today should help us to highlight the 
positives and negatives, and fully understand any areas that need to be 
addressed. Both the House and Senate have introduced multiple bills 
over the past decade on this issue, though few attempts have been made 
at seriously examining the issue before legislation is introduced and 
considered.
    We have panelists here today who should be able to give this 
Committee a thoughtful viewpoint, as our witnesses represent the 
Administration, the local CNMI government, as well as someone that has 
been intimately involved with U.S. insular affairs for many years.
    Past attempts at moving legislation regarding a nonvoting Delegate 
from the CNMI left us with few results. Our oversight hearing today 
should be a fruitful examination helping us to avoid hasty actions that 
will prevent properly weighing all facets of this issue in our current 
economic and social climate.
                                 ______
                                 
    The Chairman. Ms. Christensen?

STATEMENT OF HON. DONNA M. CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Good morning and thank you, Mr. Chairman, 
for the opportunity to make brief remarks this morning on this 
very important hearing to examine the potential for a Delegate 
to Congress from the Commonwealth of the Northern Mariana 
Islands. I would like to welcome our Deputy Assistant Secretary 
and Governor Babauta and Resident Commissioner and everyone who 
has traveled, as you have said, from long distances to be here.
    I thought that we should now be past the point of just 
examining the potential for this delegate, though, and while I 
have not in the past cosponsored legislation sponsored by my 
former colleague from Guam, Bob Underwood, to provide for a 
nonvoting Delegate in the House of Representatives to represent 
the CNMI, I do support their having a Delegate.
    As a Representative, of course, from an insular area, I am 
keenly aware of the importance of being able to represent the 
residents of our home island in this body even if we are not 
able to cast a vote on the Floor of the House, and the CNMI is 
the only permanently populated U.S. territory without 
representation in Congress.
    Having visited CNMI about 5 years ago, I am also sensitive 
to the issues that have given a number of my colleagues concern 
in supporting this legislation and I am informed that much has 
been done to address those concerns and I have a lot of 
confidence in the leadership of Governor Babauta to continue 
that process.
    So while I am prepared to support the legislation, I am 
also interested in hearing how the issues of immigration, 
labor, and environmental laws are being dealt with and will be 
dealt with. I look forward to the testimony and to working with 
all of you to reach some satisfactory resolution on any 
remaining concerns, or at least having some principles being 
put into place as to how we would guide the remaining work.
    But in the final analysis, these should not be impediments 
to giving this legislation the full support it deserves. In 
fact, I think it would be better--these issues would be better 
addressed with a delegate representing the CNMI, and neither is 
the major impediment raised before, population size, a factor 
today.
    So I am looking forward to the testimony of our witnesses 
in this regard and doing all that I can to add a sixth Delegate 
from the CNMI to this distinguished body.
    Mr. Chairman, would you prefer that I yield my remaining 
time?
    The Chairman. If I could at this time, I have received a 
request for a couple of very brief opening statements before we 
get to the witnesses and I would recognize Mr. Flake.

STATEMENT OF HON. JEFF FLAKE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Flake. I thank the Chairman. I appreciate those that 
have traveled so far. I was able to go on that CODEL and visit 
these areas and particularly CNMI and I am pleased to help 
cosponsor this legislation to get it through.
    I just want to say that Arizona, the State that I 
represent, had a Delegate to Congress ever since 1864. From 
1864 to 1912, when Arizona was a territory, we had a Delegate, 
and at the beginning, there were only 10,000 citizens 
represented. CNMI has a lot more than that, so I am pleased to 
be in support of this legislation and look forward to the 
hearing.
    The Chairman. Ms. Bordallo?

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE IN CONGRESS 
                           FROM GUAM

    Ms. Bordallo. Thank you very much, Mr. Chairman, for this 
opportunity, and a warm ``Hafa adai'' to our neighbors from the 
CNMI.
    Mr. Chairman, just very briefly, I want to thank you very, 
very much for your interest in the Pacific territories, as 
evidenced by your leading a delegation to seven islands 
recently. As Chairman of the Resources Committee with 
jurisdiction over the territories, it was of utmost importance 
that you become familiar with our territories and our issues, 
and you did just that.
    I also want to mention the fact that the Secretary of 
Interior was on that CODEL, as well as just about every member 
up here except for Representative Christensen, who is in the 
wrong side of the--not in the right ocean, let us just put it 
that way.
    Mrs. Christensen. Thank you.
    [Laughter.]
    Ms. Bordallo. But thank you so much, Chairman Pombo. It 
meant a great deal to the people of Guam.
    Chairman Pombo, Ranking Member Rahall, and members of the 
Committee, I would first like to welcome our neighbors from the 
Commonwealth of the Northern Mariana Islands, to Governor 
Babauta, Senate President Adriano, Senators Crisostamo, 
Mendiola, Villagomez, and San Nicholas, and Representative 
Maratita. I also want to welcome Resident Representative Pedro 
Tenorio, my good friend, and I hope that very soon the day will 
come where you, Mr. Tenorio, will join us in the House of 
Representatives as a Delegate from the Northern Marianas.
    Mr. Chairman, I commend you for holding this oversight 
hearing and I hope that this hearing opens a new dialog that 
will lead to a Delegate bill for the CNMI. I strongly support 
the CNMI having a Delegate to Congress. Guam's own experience 
as a territory since the Organic Act of 1950 is a case for 
having a Delegate to Congress who will represent the 
territory's interests and who will be an advocate and a source 
of information for Federal policymakers.
    I am confident that Governor Babauta, Resident 
Representative Tenorio, and the leaders of the CNMI will make a 
compelling case for representation in Congress. As fellow 
American citizens, the residents of CNMI should be represented 
in the law making body that affects their daily lives. It seems 
to me that with American citizenship comes responsibilities and 
privileges, and among those privileges, representation in the 
House of the People is not only appropriate, but necessary to 
give full meaning to citizenship.
    There are historical reasons why the CNMI has not been 
granted a delegate to this day and there are concerns that 
other members of Congress have raised in the past. I hope that 
the recent efforts of Governor Babauta in the CNMI government 
would help to answer questions and reaffirm the good 
relationship between the CNMI and the Federal Government.
    There are many issues regarding the CNMI that ought to be 
aired, and these issues point to the need for a Delegate in 
Congress to speak for and answer for the CNMI. Representation 
should not be based on good behavior, and it should not be a 
reward for having one policy or another. Representation should 
be based on American values of democracy and fairness. 
Participation in a democracy is an inalienable right of 
citizens, and this right is not contingent on a litmus test.
    So, Mr. Chairman, thank you for giving me this opportunity. 
Again, thank you on behalf of the people from the islands for 
your visit.
    The Chairman. Thank you.
    [The prepared statement of Ms. Bordallo follows:]

    Statement of The Honorable Madeleine Z. Bordallo, a Delegate in 
                           Congress from Guam

    Chairman Pombo, Ranking Member Rahall and Members of the Committee:
    I would first like to welcome our neighbors from the Commonwealth 
of the Northern Mariana Islands (CNMI), and wish a warm ``Hafa adai'' 
to Governor Babauta, Senate President Adriano, Senators Crisostomo, 
Mendiola, Villagomez and San Nicholas and Representative Maratita. I 
also want to welcome Resident Representative Pedro Tenorio and I hope 
that very soon the day will come where Mr. Tenorio joins us in the 
House of Representatives as the Delegate from the Northern Mariana 
Islands.
    Mr. Chairman, I commend you for holding this oversight hearing, and 
I hope that this hearing opens a new dialogue that will lead to a 
Delegate bill for the CNMI. I strongly support the CNMI having a 
Delegate to Congress. Guam's own experience as a territory since the 
Organic Act of 1950 is a case for having a Delegate to Congress who 
will represent the territory's interests and who will be an advocate 
and a source of information for federal policymakers.
    I am confident that Governor Babauta, Resident Representative 
Tenorio and the leaders of the CNMI will make a compelling case for 
representation in Congress. As fellow American citizens, the residents 
of the CNMI should be represented in the law making body that affects 
their daily lives. It seems to me that with American citizenship comes 
responsibilities, and privileges. Among those privileges, 
representation in the House of the People is not only appropriate, but 
necessary, to give full meaning to citizenship.
    There are historical reasons why the CNMI has not been granted a 
Delegate to this day, and there are concerns that other Members of 
Congress have raised in the past concerning this issue. I hope that the 
recent efforts of Governor Babauta and the CNMI government would help 
to answer questions and reaffirm the good relationship between the CNMI 
and the federal government. There are many issues regarding the CNMI 
that ought to be aired and these issues point to the need for a 
Delegate in Congress to speak for and answer for the CNMI. 
Representation should not be based on ``good behavior,'' and it should 
not be a reward for having one policy or another. Representation should 
be based on American values of democracy and fairness--participation in 
a democracy is an inalienable right of citizens, and this right is not 
contingent on a litmus test.
    Mr. Chairman, the Congressional Delegation you recently led to the 
Pacific included a visit to the Northern Marianas. I am confident that 
the Committee has a much better understanding of the issues that will 
be raised here today. This hearing will help to foster a fresh dialogue 
and, hopefully, bring a new understanding that will result in a 
Delegate bill being supported and passed by both sides of the aisle. 
Thank you, Mr. Chairman, Si Yu'os Ma'ase.
                                 ______
                                 
    The Chairman. Mrs. Christensen?
    Mrs. Christensen. I would just like to ask that the remarks 
of Representative Nick Rahall, the Ranking Member, be included 
in the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Rahall follows:]

  Statement of The Honorable Nick J. Rahall, II, a Representative in 
                Congress from the State of West Virginia

    Mr. Chairman, let me begin by first thanking you for convening this 
hearing to examine the potential for establishing a non-voting delegate 
from the Commonwealth of the Northern Mariana Islands to the House of 
Representatives (CNMI). I am pleased that throughout this Congress we 
have been able to work together on issues affecting Pacific issues 
under the jurisdiction of our Committee.
    I also want to warmly welcome our witnesses here this morning - 
most especially, those who have traveled here from the CNMI--Governor 
Babauta and Senate President Adriano. Of course your representative, 
Mr. Tenorio, has become a familiar face to us with his diligence in 
representing the people of the CNMI on a daily basis here in 
Washington, D.C.
    I support the creation of a non-voting delegate from the CNMI to 
the House of Representatives. I believe it to be a fundamental tenet of 
our republican form of government.
    As Members of Congress, representing of our respective districts is 
a privilege granted to us by our constituents. The right for them to be 
represented lies in democracy.
    In 1996, this Committee made two attempts at passing legislation to 
create such a CNMI non-voting delegate office. The first failed and the 
second succeeded but without further consideration by the House.
    It was not only unfortunate that our Committee at the time held no 
such hearings on the legislation, but also a disservice to many of my 
colleagues who expressed concern over CNMI's labor and immigration 
practices.
    As you know, the CNMI came under heavy scrutiny by Congress in the 
1990's for the rampant abuse over local control of immigration and the 
treatment of non-resident guest workers recruited into the CNMI. Many 
Members of Congress, including myself, continue to monitor your 
progress on that front.
    Governor--if you will--I believe that your election into office was 
the first indication that the people of the CNMI were serious about the 
changes needed to take seriously your unique status and self-governing 
authority, and repair the CNMI's relationship with Congress.
    I am aware that there has been significant reform under your 
leadership. And most recently, the garment association has joined you 
in opposition to lifting the moratorium on guest workers which was 
initially enacted locally in response to concerns from Congress.
    I am sure their position was a welcomed and unexpected development 
to everyone--yet it underscores how far you've come since the 1990's.
    In the interest of moving forward with getting approximately 35,000 
fellow Americans represented in the Congress, we look forward to 
hearing the testimony from our witnesses.
                                 ______
                                 
    The Chairman. I would say to my colleague from Guam, that 
was a very good opening statement and that is something that I 
think we all need to keep in mind as we move through this 
hearing. That was very well said.
    I would like to introduce our first panel. I would like to 
welcome Mr. David Cohen, the Deputy Assistant Secretary of the 
Interior for Insular Affairs at the Department of Interior, to 
our hearing today to talk about how the Administration views 
this topic.
    Mr. Cohen is also accompanied today by Mr. James Benedetto, 
the Federal Ombudsman with the Department of Interior. He will 
not be making a formal statement but is available for questions 
from members. Given that he works daily on the ground in the 
Commonwealth, his input should prove to be valuable.
    Before Mr. Cohen gives his testimony, I wish to continue 
the customary practice of swearing in all witnesses as provided 
under Rule 4(f) of the House rules. If I could have you both 
stand and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the statements made and the responses given will 
be the whole truth and nothing but the truth?
    Mr. Cohen. I do.
    Mr. Benedetto. I do.
    The Chairman. Let the record show they both answered in the 
affirmative.
    Welcome to the Committee. Mr. Cohen, I don't think we have 
had the opportunity to talk to each other since we were in the 
islands together, but it is nice to see you back. Mr. 
Benedetto, it is great to have you here and to be able to 
participate in this hearing.
    Mr. Cohen, if you are ready, you can begin.

STATEMENT OF DAVID COHEN, DIRECTOR, OFFICE OF INSULAR AFFAIRS, 
   U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY JAMES J. 
  BENEDETTO, FEDERAL OMBUDSMAN, OFFICE OF THE OMBUDSMAN, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cohen. Mr. Chairman and members of the Committee, I am 
pleased to appear today to discuss whether the CNMI should be 
represented by a nonvoting Delegate to the U.S. House of 
Representatives.
    First, I note that the CNMI is the only permanently 
populated community in the entire country without 
representation in Congress. Every other territory and 
commonwealth has a Delegate to the House of Representatives, as 
does the District of Columbia. Every U.S. citizen living in any 
part of America has a member of Congress that represents him or 
her except for the U.S. citizens living in the CNMI. Issues 
vitally important to health, education, welfare, economic 
development, security, and other matters in the CNMI are 
decided in these chambers. The Commission on Federal Laws, 
appointed by President Reagan, recommended in 1986 that the 
CNMI have a nonvoting Delegate to the House of Representatives.
    My written statement lists a number of important 
contributions that the CNMI has made and continues to make to 
protecting the freedom and security of all Americans.
    As you know, there was much debate in the mid-1990s 
regarding CNMI labor and immigration issues. Most of this 
debate related to the garment industry. I am pleased to report 
that a great deal of progress has been made since then and much 
of the credit goes to Congress. My written statement discusses 
this progress in greater detail.
    One factor contributing to the improvement of conditions 
was the establishment of the Office of the Federal Ombudsman, a 
Federal employee who works with Federal and local authorities 
to protect the rights of foreign workers. The first Ombudsman 
was an attorney named Pam Brown. Those who initially opposed 
reform were highly suspicious of her and the role of her 
office. Her relationship with the CNMI government in office at 
the time was initially rather difficult. Here is perhaps the 
most telling sign that things have changed in the CNMI. Pam 
Brown is now the Attorney General of the CNMI.
    We are heartened by the progress that has been made. We are 
committed to continuing to work with the CNMI to continue this 
progress. However, we should be careful to avoid the suggestion 
that this progress is a prerequisite that the CNMI must satisfy 
in order to deserve representation. We would not want to 
suggest that we are holding the people of the CNMI collectively 
responsible for problems that involve just a few members of the 
local population.
    Let us consider the stories of two Americans, Army Captain 
James Pangelinan and Army Specialist Monique Sablan. Captain 
Pangelinan's father is my friend, Ed Pangelinan, who is here 
today, and a quick historical detour about the father is in 
order.
    Ed is one of the founding fathers of the CNMI. He led the 
Northern Marianas team that negotiated the U.S.-CNMI covenant. 
In those days, the Northern Marianas were part of the Trust 
Territory of the Pacific Islands, which the U.S. had 
administered since just after World War II. The three other 
island groups in the old trust territory all chose to become 
sovereign nations rather than to join the U.S. The U.S. has 
worked hard to nurture each of those three new sovereign 
nations into a fully functioning democracy in which every 
community is represented in an elected national legislature. Ed 
Pangelinan dreams of the day that the CNMI, which he helped to 
lead into the American family, will be represented in the 
elected national legislature of his country, the United States 
of America.
    Like his father, Captain James Pangelinan is proud to be an 
American. He graduated from West Point. He is now serving with 
the 25th Infantry Division in Iraq, patrolling through the 
treacherous Suni triangle.
    Specialist Monique Sablan, a soldier in the 101st Army 
Airborne Division from Saipan, is one of hundreds of CNMI 
residents currently on active duty in the U.S. military. She 
was serving in Iraq when her convoy was bombed. Her leg was 
badly injured and she was evacuated to Germany and then on to 
Walter Reed. She remains in a hospital bed recovering from her 
wounds, and I had the honor of visiting her last week to 
personally thank her for the sacrifice that she has made for 
her country.
    Captain Pangelinan and Specialist Sablan have put their 
lives on the line so that the people of Iraq can achieve the 
dream of a democracy in which every community is represented in 
an elected national government. Other soldiers from the CNMI 
are fighting so that the people of Afghanistan can achieve the 
same dream.
    Mr. Chairman, these brave young men and women from Saipan, 
from Tinian, from Rota, have the same dream for themselves as 
they do for the peoples of Iraq and Afghanistan. They dream of 
being represented in the national legislature of their country, 
the country whose uniform they proudly wear, the country that 
they proudly defend. They dream that they will 1 day have the 
representation that has been afforded to every other State, 
territory, and commonwealth in the American family.
    Mr. Chairman, the Administration supports the concept that 
the CNMI be represented by a nonvoting Delegate to the U.S. 
House of Representatives. We look forward to working with you 
and the Committee on this important issue. Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Cohen follows:]

Statement of David B. Cohen, Deputy Assistant Secretary of the Interior 
          for Insular Affairs, U.S. Department of the Interior

    Mr. Chairman and members of the Committee on Resources, I am David 
Cohen, and I appear before you today wearing at least two hats: I am 
the President's Special Representative for the ongoing U.S. discussions 
with the Commonwealth of the Northern Mariana Islands (CNMI) under the 
U.S.-CNMI Covenant, and am the Deputy Assistant Secretary of the 
Interior for Insular Affairs. It is my pleasure to appear here today to 
discuss whether the CNMI should be represented by a non-voting delegate 
to the U.S. House of Representatives.
    I recognize, Mr. Chairman, that this issue deals with how the House 
of Representatives is to be organized. Let me assure you that we 
completely respect the prerogative of the Congress to decide for itself 
how it will be organized and how it will allocate its internal 
operating budget.
    I also recognize that no actual bill on this subject has yet been 
introduced. If a bill is introduced, we will certainly work with you on 
that legislation.
    Nevertheless, you have solicited our thoughts on the subject, and 
we are pleased to be responsive to your request. I thought that it 
might be useful for me to provide some of our historical perspective 
and thoughts on the issue.
    First, I note that the CNMI is the only permanently populated 
community in the entire country without representation in the U.S. 
Congress. Every other U.S. territory and commonwealth has a Delegate to 
the U.S. House of Representatives, as does the District of Columbia. 
Every U.S. citizen, living in any part of America, has a member of 
Congress that represents him or her, except for the U.S. citizens 
living in the CNMI. The CNMI has a larger population than American 
Samoa, which has a Delegate to Congress, and people born in American 
Samoa are non-citizen U.S. nationals rather than U.S. citizens.
    As with all of the territories, issues vitally important to health, 
education, welfare, economic development, security and other matters in 
the CNMI are decided in these Chambers. The Commission on Federal Laws, 
appointed by President Reagan in accordance with Section 504 of the 
U.S.-CNMI Covenant, recommended to Congress in 1986 that the CNMI have 
a non-voting Delegate to the U.S. House of Representatives.
    Although the CNMI is a small, isolated outpost of America, it has 
made, and continues to make, important contributions to the protection 
of freedom and security of all Americans:
    <bullet>  After the U.S. took Saipan from the Japanese late in 
World War II, the U.S. Marines recruited men from the island to patrol 
enemy pockets of resistance. This unit became known as the Marianas 
Marine Scouts and participated in combat against enemy forces. In 1999, 
the U.S. formally recognized the services of the Marianas Marine Scouts 
and gave them official Veterans' status.
    <bullet>  On August 6, 1945, a B-29 bomber, known as the Enola Gay, 
left its base on Tinian Island in the Northern Marianas and entered 
history when it delivered the first atomic bomb on Hiroshima, Japan. 
Three days later, another B-29, known as Bocks Car, took off from 
Tinian and dropped a second atomic bomb on Nagasaki. The combined 
devastating effect of these two atomic bombs were enough to convince 
the Japanese High Command to accept American surrender terms, thus 
saving the lives of hundreds of thousands of Americans and Japanese who 
would have been casualties in an invasion of Japan.
    <bullet>  During the Cold War, Saipan housed a highly classified 
CIA training base. Trainees would be flown in from various Asian 
countries, trained, then sent back to spy on the Communists and other 
groups in which the CIA was interested. This training facility was 
viewed as a vital part of our nation's efforts to counter communism in 
Asia.
    <bullet>  In the 1980's, the CNMI provided valuable land and 
logistical support to the U.S. Air Force's plan to install and operate 
a long-range, over-the-horizon radar at the northern end of Saipan. The 
purpose of the classified facility was to extend the military's early 
warning system against aircraft or missile attacks from the Soviet 
Union and other Asian nations.
    <bullet>  For the last several years, the CNMI has been host to a 
number of pre-positioned ships, placed there with vital military cargo 
by the U.S. military for use in emergency situations in the Pacific.
    <bullet>  Today, U.S. military fighter planes use the tiny island 
of Farallon de Medinilla in the CNMI, located about 45 miles from 
Saipan, for bombing practice. The island is the only live fire bombing 
range available to the Department of Defense in the Pacific and is 
regarded as vital for helping the military maintain a high level of 
readiness
    We are all aware, Mr. Chairman, that there was much heated debate 
in the mid-1990s regarding CNMI labor and immigration issues. Most of 
this debate related to the garment industry. I am pleased to report 
that a great deal of progress has been made since then, and much of the 
credit goes to members of Congress who worked hard to ensure that the 
rights of alien workers were protected.
    In the years since the height of the controversy, the CNMI 
government, the Federal Government and the garment industry itself have 
all taken major steps to improve labor conditions in the CNMI and to 
protect the rights of workers. The CNMI government has enacted several 
reforms since the mid-1990s and has, especially in recent years, 
established a very good working relationship with Federal authorities. 
Last September I was pleased to sign, along with Governor Juan Babauta, 
an historic agreement whereby the CNMI agreed to cooperate with Federal 
authorities to combat human trafficking and to establish asylum 
procedures to protect foreign workers.
    The garment industry has also made very substantial improvements. 
In 2000, the Saipan Garment Manufacturers Association entered into a 
partnership with the Occupational Safety and Health Administration to 
improve working conditions in the garment industry. OSHA's Regional 
Administrator recently reported to me the following: ``We believe 
through our joint efforts with the industry, there has been a marked 
improvement in the safety and health and living conditions of the 
workers in Saipan. Although there is still more room for improvement, 
we believe the industry is voluntarily on the road to making their 
operations a model.'' Mr. Chairman, I have toured garment factories on 
Saipan, including a recent tour in which I accompanied you and other 
members of this Committee. I would defer to the greater expertise of 
the Regional Administrator, but have noted nothing that would lead me 
to disagree with him.
    Another factor contributing to the improvement of labor conditions 
in the CNMI is the increased Federal presence in the islands, initiated 
largely by Congress through the CNMI Initiative on Immigration, Labor 
and Law Enforcement. That initiative provided the initial funding for 
several key Federal agencies, such as OSHA, the Department of Justice 
and the Department of Labor, to establish a presence in the CNMI, where 
they work cooperatively with the CNMI government and the business 
community to address problems. Prior to receiving funding under the 
initiative, none of these agencies had a major presence in the CNMI. 
This almost certainly contributed to a lack of understanding in this 
newest of American communities about what the Federal Government 
requires in the way of worker protection. The CNMI Initiative has also 
funded the Federal Ombudsman, a Federal employee who works with Federal 
and local authorities to ensure that the rights of foreign workers are 
protected.
    The first Federal Ombudsman was an attorney named Pam Brown. Those 
who initially opposed reform were highly suspicious of her and the role 
that her office was to play. Her relationship with the CNMI government 
in office at the time was initially rather difficult. Here is perhaps 
the most telling sign that things have improved in the CNMI: Pam Brown 
is now the Attorney General of the CNMI, having been hand-picked by the 
new Governor, Juan Babauta, and confirmed by the CNMI Legislature. I am 
proud to report that her successor, Jim Benedetto, whom I hired, has 
also been an extremely effective advocate for the rights of alien 
workers. He has an excellent working relationship with Attorney General 
Brown and with the rest of the CNMI government.
    We are heartened by the progress that the CNMI has made in recent 
years. We are committed to continuing to work with the CNMI to continue 
this progress.
    But even as we congratulate the CNMI for the tremendous progress 
that it has made on labor issues, we should be careful to avoid the 
suggestion that this progress is a prerequisite that the CNMI must 
satisfy in order to enjoy representation. We would not want to 
inadvertently create the impression that we are holding the people of 
the CNMI collectively responsible for problems that involve just a few 
members of the local population.
    As Congress considers these issues, Mr. Chairman, it may be helpful 
to consider the stories of two Americans: Army Capt. James G. 
Pangelinan and Army Specialist Monique Sablan.
    Capt. Pangelinan's father is my friend, Ed Pangelinan, and a quick 
historical detour about Ed Pangelinan is in order. Ed Pangelinan is one 
of the Founding Fathers of the CNMI. He led the delegation from the 
Northern Marianas that negotiated the U.S.-CNMI Covenant. At the time 
of those negotiations, the Northern Marianas were part of the Trust 
Territory of the Pacific Islands, which the U.S. had administered since 
the aftermath of World War II. The three other island groups in the old 
Trust Territory all chose to become sovereign nations rather than to 
join the U.S. The U.S. has worked hard to nurture each of those three 
new sovereign nations into a fully functioning democracy, in which 
every community is represented in an elected national Legislature. Ed 
Pangelinan dreams of the day that the CNMI, which he helped to lead 
into the American family, will be represented in the elected national 
Legislature of his country: the United States of America.
    Like his father, Capt. James Pangelinan is proud to be an American. 
He graduated from West Point. He is now serving with the 25th Infantry 
Division in Iraq, patrolling through the treacherous Sunni Triangle.
    Specialist Monique Sablan, a soldier in the 101st Army Airborne 
Division and from the island of Saipan, is one of hundreds of CNMI 
residents currently on active duty in the U.S. military. She was 
serving in Iraq when her convoy was bombed. Her leg was badly injured, 
and she was evacuated to Germany, and then on to Walter Reed Army 
Medical Center here in Washington. She remains in a hospital bed 
recovering from her wounds, and I had the honor of visiting her last 
week to personally thank her for the sacrifice that she has made for 
her country.
    Capt. Pangelinan and Specialist Sablan have put their lives on the 
line so that the people of Iraq can achieve the dream of a democracy, 
in which every community is represented in an elected national 
government. Other servicemen and servicewomen from the CNMI are 
fighting so that the people of Afghanistan can achieve the same dream.
    Mr. Chairman, these brave young men and women from Saipan, from 
Tinian, from Rota, have the same dream for themselves as they do for 
the peoples of Iraq and Afghanistan. They dream of being represented in 
the national Legislature of their country, the country whose uniform 
they proudly wear; the country that they proudly defend. They dream 
that they will one day have the representation that has been afforded 
to every other state, territory and commonwealth in the American 
family.
    Mr. Chairman, as I noted earlier, we recognize that it is the 
prerogative of Congress to decide this issue, within the limits set by 
the Constitution, which are discussed in the decision of the U.S. Court 
of Appeals for the D.C. Circuit's decision in Michel v. Anderson (14 F. 
3d 623). Consistent with the recommendation of the President's 
Commission on Federal Laws in 1986, the Administration continues to 
support the general concept that the CNMI should be represented by a 
non-voting delegate to the U.S. House of Representatives. We look 
forward to working with you and the Committee on this important issue.
                                 ______
                                 
    The Chairman. Let us just start with if we were to give 
CNMI a nonvoting Delegate, how would that change, or would it 
change the relationship between the Department of Interior and 
the Federal Government and the government in CNMI? What would 
be the actual changes on the ground?
    Mr. Cohen. Mr. Chairman, that is a very good question. I 
would think there would be very little change in the day-to-day 
relationship. Because the CNMI does not have a Delegate to 
Congress and is the only territory that does not have a 
Delegate to Congress, we at the Department of Interior believe 
we have an enhanced relationship with the CNMI and, I would 
say, an enhanced responsibility to ensure that the views of the 
CNMI are properly understood in all branches of the Federal 
Government.
    So when they have the opportunity to speak for themselves 
in this body, it would change somewhat. We have very close 
relationships with all the Delegates to the territories. They 
are part of our everyday work. Of course, they have the clout 
that comes with representation in Congress and we have to take 
that into account when we try to be fair to all of the 
territories.
    If the CNMI joins this body, as well, it will slightly 
alter the equation in favor of the CNMI and that would probably 
be the primary change.
    The Chairman. Do you have any estimate, or has there been 
an estimate put together on what the costs would be to the 
Federal Treasury of including a new nonvoting Delegate?
    Mr. Cohen. In the past, people have estimated the cost of a 
CNMI Delegate as being roughly equivalent to what it costs to 
have a Delegate from Guam because of similar geography, the 
travel, et cetera, which last time I checked was approximately 
$1.1 to $1.3 million per year out of the legislative budget.
    The Chairman. If I could, Mr. Benedetto, over the years, as 
this has been attempted before, it seems that there have been 
controversies that have come up. What can you report back in 
terms of the changes that have happened in the last 10 years, 
particularly in Saipan but in CNMI in general that would 
respond to what some of the past controversies were?
    Mr. Benedetto. Mr. Chairman, before I answer, I would like 
to thank you and the members of the Committee for inviting me 
here to testify today. There have been a number of reforms 
enacted in the last 10 years and there has been a very 
fundamental change in the relationship between the Ombudsman's 
Office and the local government. We now work cooperatively 
together.
    We have, during the past 18 months, signed a Memorandum of 
Agreement which allows us to share information so that they can 
open up cases more quickly and we can respond with helpful 
information a lot more quickly. We have worked together on some 
significant projects. The Memorandum of Agreement that we 
negotiated also provides for them running regulation and 
statutory changes by the Ombudsman's Office prior to those 
things being published so that we can give some sort of an 
opinion as to how those changes, those proposed changes, might 
affect our caseload and the people whose interests we serve.
    So I would say that the relationship is very, very positive 
and that there has been a lot of significant progress.
    The Chairman. Before I run out of time, I wanted to go back 
to Mr. Cohen for a second. Would there be, in your mind, and I 
don't know if this is an official position or not, but in your 
mind, would there be any reason to bring CNMI in as a nonvoting 
Delegate in a way that would be any different than, or under 
different rules than what we have done in the past, whether it 
be with the Virgin Islands or Guam or Samoa or anybody else? 
Should it not be done in the exact same way and under the same 
conditions that we have dealt with other Delegates in the past?
    Mr. Cohen. Mr. Chairman, I cannot think of a reason that we 
would want to treat the CNMI any differently than we treat any 
of the other territories or commonwealths that have a Delegate 
or any that have in the past. I would think that we would want 
to admit the CNMI to Congress under the exact same rules that 
apply to all the other nonvoting Delegate.
    The Chairman. Thank you very much.
    Mrs. Christensen?
    Mrs. Christensen. Thank you for your testimony. I just have 
two brief questions. Prior to your testimony here today, was 
the Reagan Administration via the Commission on Federal Laws 
the last Administration to speak to the issue or make a 
recommendation with regard to Congressional representation from 
the CNMI?
    Mr. Cohen. Congresswoman, I am not sure of the answer to 
that. I believe the answer is yes, the Administration has not 
taken a position since then. I believe under the Clinton 
Administration, no position was taken, but I would have to 
check that for you.
    Mrs. Christensen. Thank you. My second question, in your 
testimony, you make mention of both the historical and present 
day significance of the CNMI with regard to military training. 
Considering the prepositioning of ships with vital military 
cargo in their waters, the FDM bombing range and any other 
military exercises conducted within their islands, has the 
Administration conducted any border security analysis to assess 
the consequences of CNMI's control over immigration? This is 
something I would be interested in, especially since I sit on 
the Homeland Security Committee.
    Mr. Cohen. Sure. The Administration has not officially done 
that to my knowledge. There was a report commissioned by the 
Federal District Court for the District of the Northern 
Marianas, as well as the District of Guam, that is not a public 
report and that is very controversial in many people's views, 
that attempted to address issues like that using open source 
material and anecdotal evidence only. But to my knowledge, 
there has not been an official assessment of that.
    Having said that, we do know that the Department of 
Homeland Security has, in my experience, a good, cooperative 
working relationship with the CNMI and is aware of the needs of 
the CNMI and the other territories. It is my understanding that 
they are familiar with the situation and continually monitoring 
CNMI's needs in that regard.
    Mrs. Christensen. Was that report done in this 
Administration?
    Mr. Cohen. I believe it was done in 2002. Again, it is not 
a public document, but it is post-9/11, yes.
    Mrs. Christensen. Are you aware if any other previous 
Administrations made any recommendations regarding border 
security and its relationship to control over immigration?
    Mr. Cohen. Regarding border security specifically? I am not 
sure. I do know that during the Clinton Administration, there 
were reports done out of my office that advocated certain 
policies regarding immigration and used as justification for 
those recommendations border security and other issues, as 
well. But I don't know if those rose to the level of an 
official Administration position or recommendation.
    Mrs. Christensen. I look forward to working with the 
Governor and the Resident Representative to represent their 
concerns and to bring some resolution, if need be, to that 
through the /Committee. Thanks.
    The Chairman. If I could just follow up on that, and I know 
in the post-9/11 world border security is becoming more and 
more of an issue and something that we are all paying a lot 
more attention to, and I was just wondering if you could tell 
me, is it any easier for someone to sneak into Saipan or Guam 
or any of our territories than it is to come across the border 
of Southern California?
    Mr. Cohen. Mr. Chairman, as you know, I, like you, am from 
California and I don't think--it appears sometimes that nothing 
is easier than sneaking across the border into Southern 
California. It is hard to compare the situations, crossing over 
land and having miles and miles of coastline that need to be 
patrolled, but I can't imagine that it is significantly easier 
to sneak into Saipan or Guam or the rest of the CNMI than it is 
to sneak into the Southern United States, although certainly it 
does present numerous challenges to prevent people from being 
smuggled into an island chain like the Marianas.
    The Chairman. I also flew across several thousand miles of 
water before I got there, so--
    [Laughter.]
    Mrs. Christensen. Mr. Chairman? Would the Chairman yield 
just a minute?
    The Chairman. Yes.
    Mrs. Christensen. I would tell you that Homeland Security 
is visiting my territory. We are not as isolated as Guam and 
CNMI, so we do have some border issues and our borders, I 
think, are extremely porous, so we will be looking at that this 
weekend.
    The Chairman. I appreciate that and I think that is an 
issue that your committee is dealing with and the entire 
Congress is dealing with on a much bigger and broader scale 
than just CNMI or Guam.
    Mr. Cohen. Mr. Chairman, can I add a quick postscript to 
that?
    The Chairman. Sure.
    Mr. Cohen. Because sometimes the notion that it is 
difficult to protect all of the coastline in an island chain 
has been used to suggest that it therefore presents an enhanced 
threat to the mainland United States, because if you can 
smuggle people into the CNMI, then that is a stepping stone to 
being smuggled into the United States. But because the CNMI is 
outside of the immigration territory of the United States 
because it is not covered by the INA, we treat airplanes and 
ships and what have you coming from the CNMI as if they were 
coming from a foreign country, so they still have to pass 
immigration and customs and all of that. So it should be no 
easier to smuggle people or cargo in from the CNMI to the 
mainland than it would be to smuggle them in from a foreign 
country.
    The Chairman. Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman. I am delighted that 
our Chairman now knows the distance--
    [Laughter.]
    Ms. Bordallo.--and he is, I am sure, going to be--
    The Chairman. I know it very well.
    [Laughter.]
    Ms. Bordallo. He is going to be alluding to that now and 
then in the Committee, so I am very pleased about that.
    I have a question, one question for you, Secretary Cohen. 
The history of the covenant negotiations suggests that there 
was a correlation between the island's population at that time 
and Congressional representation. So to your knowledge, was the 
recommendation made by the Commission on Federal Laws based on 
a larger population in the CNMI in 1986 versus the covenant 
negotiation in the mid-1970s, and what is the population now?
    Mr. Cohen. Thank you, Congresswoman. The population now, 
according to the latest census, is over 69,000. I think most 
people believe that it is over 70,000 in actual fact today. The 
population at the time of the execution of the covenant was, I 
believe, between 15,000 and 20,000 people, and since then, of 
course, the population has virtually exploded.
    It is possible that the Commission on Federal Laws' 
recommendation was in part based on the fact that there was a 
larger population. We admitted American Samoa, or we afforded 
American Samoa representation in Congress when their voting 
population was about 27,000. Of course, CNMI has exceeded that.
    But having talked to people who participated in the actual 
talks, although the low population has been cited publicly as 
one of the reasons that a Delegate was not afforded with the 
original covenant, the people that I have talked to who 
participated in the talks say that the thought was that this 
was really too much to handle in addition to getting the 
covenant approved, if the prospect was to go to Congress and 
not only approve a very complex document such as the covenant 
but also approve a new Delegate to Congress, that might have 
been too much to deal with at one time and that the Delegate 
issue should be put off until later. So I have heard both 
explanations.
    Ms. Bordallo. So it wasn't then just an issue of 
population?
    Mr. Cohen. Yes. I have heard both explanations and some 
have said that it is an issue of population, but others I have 
spoken to have said that it was not just an issue of 
population.
    Ms. Bordallo. But certainly that wouldn't be an issue now.
    Mr. Cohen. That is correct.
    Ms. Bordallo. The other question I have, Mr. Chairman, is 
to Mr. Benedetto. You have been in the CNMI now since when, 
1999?
    Mr. Benedetto. That is correct.
    Ms. Bordallo. And then became the Federal Labor Ombudsman 
for well over a year now, is that correct?
    Mr. Benedetto. Yes, ma'am.
    Ms. Bordallo. Can you give the Committee your impression of 
the difficulties that you have had in this position with 
dealing with the CNMI prior to you being in your current 
position?
    Mr. Benedetto. I am sorry, ma'am, could you repeat that 
question?
    Ms. Bordallo. Could you give the Committee your impression 
of the difficulties that you have had dealing with CNMI 
officials prior to you being named the Ombudsman, and then can 
you give us your firsthand knowledge of the collaboration your 
office has now with some of the officials?
    Mr. Benedetto. I had little or no difficulty dealing with 
the CNMI government officials because for the 3 years prior to 
my being the Federal Ombudsman, I was a prosecutor in the 
Attorney General's Criminal Division with the CNMI and then in 
their Civil Division for 2 years, and a portion of that time I 
was their Deputy Attorney General.
    Ms. Bordallo. So you say you have had no difficulties--
    Mr. Benedetto. No, ma'am.
    Ms. Bordallo.--since you have taken over?
    Mr. Benedetto. Since I have taken over, it has been pretty 
uniformly good. The Governor himself has invited me to his 
office to--he said, basically, if you ever have any problems 
with anybody, I want you to come and see me directly. The 
Governor's legal counsel, the Attorney General, and certainly 
Dr. Jack, the Secretary of Labor, they have all been very 
uniformly helpful, courteous, and we have a very productive 
relationship.
    Ms. Bordallo. Good. Thank you. Thank you very much, Mr. 
Chairman.
    The Chairman. Before I excuse this panel, I want to just 
ask one additional question and it goes back to the first 
question I asked. If we did have a voting Delegate who could 
play a much more active role in Congress, would it help in 
terms of working with the Administration on enforcing different 
laws, you know, when you talk about labor laws and everything 
else, would it put him or her in the position that they would 
have a better or more direct working relationship with the 
Administration to work on some of these issues? If I could 
start Mr. Benedetto on that, just trying to think through where 
we ultimately end up with this.
    Mr. Benedetto. I think it would enhance the ability of the 
government to enforce those laws, Congressman. One of the 
problems that we have now is a little bit of an inadequate 
enforcement response and that is actually just as much Federal 
responsibility as it is CNMI responsibility. So at one time, we 
had offices in Saipan for the U.S. Labor Department Wage and 
Hour Division, the EEOC, the NLRB, and others. And now we are 
down to basically U.S. Wage and Hour.
    If there was a nonvoting Delegate, I believe that Delegate 
could advocate to have a larger Federal presence so that EEOC, 
for example, could step up their enforcement role, although 
they have been quite responsive and they are doing an excellent 
job even though they don't have an office on Saipan.
    The Chairman. Thank you very much. I want to thank the 
panel not only for your testimony, but your openness in 
answering the questions. Thank you very much for being here.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Benedetto. Thank you.
    The Chairman. I would like to call up our second panel, the 
Honorable Juan N. Babauta, Governor, Commonwealth of the 
Northern Mariana Islands; the Honorable Pete A. Tenorio, 
Resident Representative, Commonwealth of the Northern Mariana 
Islands; and the Honorable Joaquin Adriano, Senate President, 
CNMI Senate.
    If I could, before you gentlemen take a seat, if I could 
have you raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the statements made and the responses given will 
be the whole truth and nothing but the truth, so help you, God?
    Mr. Babauta. I do.
    Mr. Tenorio. I do.
    Mr. Adriano. I do.
    The Chairman. Thank you very much. Let the record show that 
they answered in the affirmative.
    Panel two consists of a group of individuals elected by and 
representing the people of CNMI. Some of these witnesses have 
flown thousands of miles to be with us today. I would like to 
begin with the Governor, Mr. Babauta, and thank you very much 
not only for your willingness to be here today, but also for 
the kindness and the openness that you showed us when we 
recently had the opportunity to visit Saipan. It was a real 
learning experience, I think, for all the members of the 
Committee who made the effort to go. It was something that I 
had wanted to do for a long time, and having the opportunity to 
be there and see it was very fulfilling for all of us, so thank 
you very much for being here, Governor.

            STATEMENT OF JUAN N. BABAUTA, GOVERNOR, 
          COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Babauta. Mr. Chairman, it was an honor and a great 
pleasure to have had you in Saipan along with the other members 
of the CODEL and Secretary Norton.
    Mr. Chairman, thank you for holding this hearing on the 
potential for representation in Congress for U.S. citizens of 
the Northern Mariana Islands, and thank you for your concern 
that you have shown for our islands, and as Chairman of the 
Resources Committee, particularly leading a CODEL there last 
month together with Secretary Norton.
    This committee has previously recognized the need to extend 
to the people of the Northern Mariana Islands, and I quote, 
``that which is fundamental to Americans in our democracy, the 
right to have a voice in their own government.'' That report 
language accompanied H.R. 4067, a bill creating a Delegate for 
the Northern Marianas when it was placed on the Union Calendar 
in late 1996 by the favorable action of this committee.
    Some of you were not committee members in 1996, so let me 
explain that in addition to identifying the fundamental right 
of citizens to be represented in the Congress, the Resources 
Committee also detailed a 200-year history of representation 
for citizens who live in areas of our nation that are not 
States. This representation was recognized to be necessary 
almost from our nation's beginning, as has been alluded 
earlier. Today, U.S. citizens in every non-State area--American 
Samoa, Guam, Puerto Rico, the Virgin Islands, and even the 
District of Columbia--are represented in Congress. Only the 
U.S. citizens of the Northern Marianas are not.
    Given that this committee has already set out the rationale 
and the historical precedent for establishing a Northern 
Marianas Delegate, I will not belabor that point here at this 
hearing, Mr. Chairman.
    I do want to confirm, and our Resident Representative Pete 
Tenorio and Senate President Joaquin Adriano and other members 
of the elected officials from the NMI, members of the 
legislature, those who are here today from the Marianas can 
attest that our people still want a voice in Congress.
    I am submitting for the record further confirmation of that 
desire, Joint Resolution 14-13, adopted by the Northern 
Marianas House of Representatives on February 10, just last 
month, or this month, rather.
    And I want you to know that the nation's Governors this 
week renewed their support for a Northern Marianas Delegate. 
Their policy reads, and I quote, ``In keeping with the American 
traditions of a participatory democracy and basic fairness, the 
National Governors Association urges Congress to enact 
legislation to provide the people of the Northern Mariana 
Islands with representation that U.S. territories have 
historically been granted, a Delegate in the U.S. House of 
Representatives.''
    I want to close, Mr. Chairman, by addressing a significant 
change in circumstances since 1996, a change I believe should 
further convince this committee to give the people of the 
Northern Marianas a Delegate.
    Our country is currently at war. American men and women are 
putting their lives on the line in order to give the people of 
Iraq the long-denied ability to vote in democratic elections 
and to be represented by elected officials in an Iraqi national 
government. We believe that assuring the people of Iraq the 
right to be represented is worth dying for. We do not condition 
this right to be represented on ethnicity or political 
viewpoint or any individual behavior. We assume each 
individual's right to be represented is fundamental.
    In 1996, when this committee decided that the U.S. citizens 
of the Northern Marianas should be represented in their 
national government, the debate was to a certain extent 
philosophical. That has changed, Mr. Chairman, for among our 
troops in Iraq are citizens, U.S. citizens from the Northern 
Marianas. They are risking their lives to give the people of 
Iraq the right to representation.
    Ironically, Mr. Chairman, those Marianas citizens, those 
soldiers, do not have the same right of representation in their 
own home, right here in America. Those Marianas soldiers fight 
for a representation or democracy that they themselves are 
denied.
    Saturday, at Walter Reed Hospital, I visited one of them. 
Deputy Assistant Secretary Cohen has mentioned this. Specialist 
Monique Sablan is recovering from a severe leg injury inflicted 
during a bomb attack on February 1 as her unit moved through 
the streets of Baghdad. Specialist Sablan did not hesitate when 
her country called. She did not ask whether she has the 
fundamental rights in her own country that she is fighting for 
in Iraq. She did not ask whether she has equal and fair 
representation in her own government. She did not ask, Mr. 
Chairman, but I am here to ask for her. I hope that you and 
other members will ask yourselves that question for her, too.
    Mr. Chairman, I hope that you and your committee will 
recognize that your action in 1996, this committee's action, 
was the right thing to do then and is the right thing to do 
now. Creation of a Northern Marianas delegate continues to be 
consistent with the highest principles of our nation. The 
people of the Northern Marianas do have a fundamental right to 
have a voice in their own government. I urge you to introduce 
Delegate legislation and to see it successfully through the 
legislative process and on to the President's desk for 
signature, Mr. Chairman.
    Thank you again for holding this hearing, a very important 
one, Mr. Chairman, for the people of the Northern Mariana 
Islands. Thank you.
    The Chairman. Thank you, Governor, for your testimony.
    [The prepared statement of Mr. Babauta follows:]

         Statement of The Honorable Juan N. Babauta, Governor, 
              Commonwealth of the Northern Mariana Islands

    Mr. Chairman, thank you for convening today's hearing on the 
potential for representation in Congress for the U.S. citizens of the 
Northern Mariana Islands.
    Thank you, also, for the concern you have shown for the Northern 
Marianas, as new Chairman of the Resources Committee--particularly by 
leading a CODEL there last month, together with Secretary Norton.
    I'd like to thank Ms. Bordallo, Mr. Cardoza, Mr. Faleomavaega, Mr. 
Flake, Mr. Lucas, and Mr. Rehberg, who were members of the CODEL, and 
invite other Members, who have not been to the Marianas, to visit. We 
are ably represented before the Federal Government by an ``elected 
lobbyist,'' Resident Representative Pete A. Tenorio. But Mr. Tenorio is 
not a Member of Congress. He cannot interact with you, as a colleague, 
to represent the people of the Marianas. So, we must rely in part on 
the occasional congressional visit to convey the concerns of our 
islands.
    Mr. Chairman, as you know, this Committee has previously recognized 
the need to extend to the people of the Northern Marianas ``that which 
is fundamental to Americans in our democracy: the right to have a voice 
in their own government.''
    That report language accompanied H.R. 4067 when it was placed on 
the Union Calendar in late 1996 by the favorable action of this 
Committee.
    Some of you were not Committee members in 1996. For your benefit, 
let me explain that, in addition to identifying the fundamental right 
of citizens to be represented in Congress, Resources Committee Report 
104-856 also detailed the 200-year history of representation for 
citizens who live in areas of our Nation that are not States. This 
representation was recognized to be necessary from the inception of our 
Nation.
    Many of the Members of this Committee hail from geographic areas 
once represented by Territorial Delegates. And some of you are 
Delegates. Because the tradition has continued and the principle has 
been honored right up to the present day. In fact, U.S. citizens in 
every non-State area of our Nation--American Samoa, Guam, Puerto Rico, 
the Virgin Islands, and the District of Columbia--are represented here 
in Congress. Only the U.S. citizens of the Northern Marianas are not.
    Given that this Committee has already set out the rationale and 
historical precedent for establishing a Delegate in the House of 
Representatives to represent the people of the Northern Marianas, I 
will not belabor the point.
    I do, however, want to confirm that the people of the Northern 
Marianas still want representation. Representative Tenorio, our Senate 
President Joaquin Adriano, and myself can all testify to you that there 
is full support among the people of the Marianas to be represented here 
in Congress, as are all other citizens and residents of the United 
States. With your permission, Mr. Chairman, I would like to submit for 
the record further confirmation of that desire, Joint Resolution 14-3, 
adopted by the Northern Marianas House of Representatives on February 
10th.
    I should also note that the National Governors Association has 
adopted as its policy support for Northern Marianas representation in 
Congress. The policy reads in part:
        In keeping with the American traditions of participatory 
        democracy and basic fairness, the National Governors 
        Association urges Congress to enact legislation to provide the 
        people of the Northern Mariana Islands with the representation 
        that U.S. territories have historically been granted: a 
        Delegate in the U.S. House of Representatives.
    This policy was first adopted two years ago when I joined the 
Governors Association and it was renewed this week by the 50 
Governors--Republicans and Democrats--who were in attendance at the 
Governors' Winter Meeting.
    Mr. Chairman, I want, also, to address two significant changes in 
circumstances since 1996--changes, I believe, should lead this 
Committee to recommend once again that the Marianas be given a 
Delegate.
    The first change has to do with Northern Marianas labor and 
immigration policies, which in 1996 were raised as an impediment to 
representation. If, as this Committee wrote, the right to 
representation is fundamental, then it should not be conditional. It 
should be available to all Americans.
    Nevertheless, I do want to report significant change in our 
policies and the way they are implemented and enforced:
    We put a stop to open-ended immigration by enacting a cap on the 
number of foreign workers in the Northern Marianas. In 1997 there were 
34,111 workers; in 2003 the number had declined to 29,381.
    We automated our immigration procedures and instituted entry and 
departure scanning systems that permit us to tell at a glance who is in 
the Northern Marianas--and whether they should be.
    Now that immigration is automated we are doing the same with labor 
permits. All relevant information--labor contracts, background checks, 
health data--will be entered and stored digitally. And all actions 
taken will be recorded electronically. This system provides faster, 
more accurate, service to the public, and also reduces the potential 
for corruption.
    Finally, Mr. Chairman, we have rewritten our immigration and labor 
regulations so that all of the processes are standardized.
    I would like to submit for the record a more complete report of the 
substantial reforms that we have undertaken and what the outcome of 
these reforms has been in terms of prosecutions and improved conditions 
for workers.
    I was disappointed in 1996 that the Delegate bill this Committee 
approved never reached the Floor, but I have always considered the 
attention that this Committee has focused on law enforcement in the 
Marianas to be rightly your responsibility--and a positive influence.
    But sustained and substantial reform can only be accomplished if 
the people of the Marianas want that reform. And they do. They have 
demonstrated that desire by electing officials who, over the years 
since 1996, have taken the Marianas in a new direction of fair and 
equitable labor and immigration law enforcement. Our work is not done--
the work of law enforcement is never really done; but the work is well 
begun. And the commitment is solid.
    This is the first change in circumstances since 1996 I want the 
Committee to note.
    The second change is of more recent origin:
    Mr. Chairman, our country is at war. Today, in Iraq American men 
and women are putting their lives on the line in order to provide the 
people of Iraq the long-denied ability to vote in democratic elections 
and to be represented by elected officials in an Iraqi national 
government.
    We believe that assuring the people of Iraq the right to be 
represented is worth dying for.
    We do not condition this right to be represented on any individual 
behavior.
    We assume that the right to be represented is intrinsic.
    In 1996, when this Committee decided that the U.S. citizens of the 
Northern Marianas should be represented in their national government, 
the debate was to a certain extent philosophical.
    That has changed. Next month, a unit of 100 reservists from the 
Northern Marianas reports for duty in Iraq. They will be risking their 
lives to give the people of Iraq the right to representation. 
Ironically, those 100 U.S. citizens do not have that right of 
representation themselves in their own home, in the United States of 
America.
    Nor are these the first U.S. citizens from the Northern Marianas to 
face the irony of fighting for democracy in Iraq. Saturday, at Walter 
Reed Hospital I visited another, Specialist Monique Sablan. Specialist 
Sablan is recovering from severe trauma to her leg inflicted by a bomb 
attack on February 1st, as her unit moved through the streets of 
Baghdad.
    Specialist Sablan did not hesitate when her country called. She did 
not ask whether she has equal and fair representation in her 
government. But we should ask that question.
    Mr. Chairman, I hope you and your Committee will recognize that 
your action in 1996, recommending approval of a Northern Marianas 
Delegate bill, continues to be consistent with the highest principles 
of our Nation. The people of the Northern Marianas do have a 
fundamental right to have a voice in their own government.
    I urge you to introduce Delegate legislation and see it 
successfully through the legislative process.
    Thank you again for holding this hearing.
                                 ______
                                 
    The Chairman. Mr. Tenorio?

       STATEMENT OF PEDRO A. ``PETE'' TENORIO, RESIDENT 
  REPRESENTATIVE, COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Tenorio. Good morning, Chairman Pombo. Hafa adai to you 
and Ranking Member Rahall and members of the Committee. My name 
is Pedro A. Tenorio. I am the Resident Representative of the 
Commonwealth to the United States. Thank you again for holding 
this very important hearing. I am honored to testify before you 
today.
    Before I begin, Mr. Chairman, I would like to extend the 
apologies of Speaker Benigno Fitial of our legislature, who is 
unable to make the long trip and attend this hearing due to 
health problems. We do have representatives from our 
legislature, as Congresswoman Bordallo had indicated already, 
four from the Senate plus the President and a Representative 
from the House.
    The purpose of my testimony today, Mr. Chairman and 
members, is to respectfully request Congress to authorize a 
Delegate seat in Congress for the Northern Mariana Islands. 
Such legislation would extend democratic representation to 
American citizens in the Commonwealth and affirm Congress's 
commitment to the democratic principles of our republic.
    Our people strongly believe that the Delegate issue is 
about justice, equity, and fairness and that we deserve 
representation in the Congress just like the other U.S. 
territories. There are well-justified historic, economic, and 
strategic reasons for representation which I hope to convey to 
you in my testimony today.
    The timing of this hearing is particularly appropriate, as 
many of you took part in a recent CODEL to our islands. While 
the visit was brief, I believe that you have gained a sense of 
our traditions, values, and pride in being part of the United 
States.
    For three decades, Mr. Chairman and members, our people 
have expressed their desire to be represented in Congress. In 
1974, the Marianas Political Status Commission requested a 
Delegate similar to those representing Guam and the Virgin 
Islands. U.S. negotiators representing Presidents Nixon and 
Ford supported the request. However, the U.S. House leadership 
discouraged us, citing our small population as compared with 
that of Guam and the Virgin Islands at the time they were 
granted Delegates. In 1978, American Samoa was granted a 
Delegate with a population of 27,000, and according to the 
recent U.S. Census Bureau, the population of CNMI now is 
currently 69,000.
    In the early 1980s, President Reagan appointed a Commission 
on Federal Laws, of which I was a member, to review which laws 
should or should not be made applicable to the Commonwealth of 
the Northern Mariana Islands. In its final report, the 
commission recommended that Congress provide for a CNMI 
Delegate in the House of Representatives.
    Mr. Chairman, I wish to point out that our membership in 
the U.S. political family and the activities of this Congress 
has inspired our desire for representation. Because the CNMI is 
part of the United States, Congress consistently includes us 
with the other U.S. territories in a wide variety of 
legislation. However, while the laws are enacted and rules and 
regulations are promulgated to govern these laws, we are 
excluded from the process.
    Our people recognize that they, like your constituents, 
need an elected official in Congress. We elect the Resident 
Representative for the Northern Marianas to serve in 
Washington, but the position is like that of a lobbyist. We 
have been relegated to asking our friends in Congress to do for 
us what we cannot do for ourselves. As part of America and 
faced with similar issues as the rest of the country, it is 
imperative that we be involved in our national legislative 
process.
    I have with me today resolutions adopted by the 14th 
Commonwealth Legislature, the National Governors Association, 
and the others that week Congressional approval to provide a 
CNMI Delegate in the U.S. Congress.
    The CNMI relationship with the U.S. has been mutually 
beneficial because of our islands' strategic location in the 
Western Pacific. Over the last 28 years, the CNMI people have 
benefited as American citizens of a vibrant self-governing 
political entity. The U.S. has also benefited from the support, 
loyalty, patriotism, and affection of the CNMI people.
    During World War II, our strategic location brought the 
U.S. to our shores and in a desperate battle, thousands of 
American soldiers died fighting for freedom. The island of 
Tinian became the launching pad for the Enola Gay, the B-29 
bomber that dropped the first atomic bomb on Hiroshima, ending 
the war in the Pacific and ushering in the atomic age.
    Our islands have continued during peacetime to have a major 
significance to U.S. national defense and security, as critical 
military exercises are conducted on our islands. Two-thirds of 
the island of Tinian and the entire island of Farallon de 
Medinilla are leased to the United States for 100 years. Annual 
military exercises on Tinian prepare our armed services for 
tropical conditions and amphibious assaults. Farallon de 
Medinilla is the only live fire area in the Western Pacific 
that is presently used by the U.S. for live bombing exercise, 
including tactical, surface-to-surface, and air-to-surface 
training exercises.
    Mr. Chairman, for the native Camorros, Carolinians, and 
other Americans, the Commonwealth of the Northern Mariana 
Islands as part of the United States represents the American 
dream for equality. However, after almost 18 years of being 
American citizens, we remain the last United States territory 
not represented in the legislative body of our nation.
    Again, I thank you for the privilege to testify before your 
committee, Mr. Chairman, and I look forward to working with you 
in the coming months and I will be happy to answer any 
questions that the Committee may have. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Tenorio.
    [The prepared statement of Mr. Tenorio follows:]

    Statement of The Honorable Pedro A. (Pete) Tenorio, a Resident 
    Representative to the United States for the Commonwealth of the 
                    Northern Mariana Islands (CNMI)

Introduction
    Hafa Adai, Chairman Pombo, Ranking Member Rahall, members of the 
Committee, I am Pedro A. (Pete) Tenorio, Resident Representative to the 
United States (U.S.) for the Commonwealth of the Northern Mariana 
Islands (CNMI). Thank you for holding this very important hearing on 
the potential for a CNMI nonvoting Delegate to the U.S. Congress. I am 
honored to testify before you today.
    The timing of this hearing is particularly appropriate, as many of 
you took part in a recent Congressional Delegation (CODEL) trip to our 
homeland. The CODEL presented you an opportunity to experience 
firsthand our people and native culture and visit with our elected 
officials. While the CODEL visit was brief, I believe you gained a 
sense of our traditions, values and pride in being part of the U.S. I 
hope you more fully understand and appreciate the hope of Americans in 
the CNMI to have a voice in Congress.
    The purpose of my testimony today is to respectfully request that 
Congress authorize a nonvoting Delegate position in Congress for the 
CNMI. Such legislation would extend democratic representation to 
American citizens in the CNMI and affirm Congress' commitment to the 
democratic principles of our Republic.
    I believe the CNMI is just as deserving of representation in the 
Congress as all the other U.S. territories. By showcasing our 
significance in American history, I hope to demonstrate that this issue 
is about justice, equity, and fairness for the people of the CNMI to 
have status in Congress equal to that of other U.S. territories.
Geographical Overview of the CNMI
    The CNMI consists of 14 of the 15 islands that make up the Marianas 
Archipelago (the 15th is Guam, a separate U.S. territory and the 
southernmost in the chain), stretching more than 400 miles north to 
south. Saipan, the main island, is 1,650 miles east of the Philippines; 
1,500 miles south of Tokyo; and 3,720 miles west of Honolulu. The 
Marianas Archipelago is the dividing line between the Pacific Ocean and 
the Philippine Sea. Just to the east of the chain is the Marianas 
Trench, with the world's greatest known ocean depth at 38,635 feet. As 
part of the U.S., the Northern Marianas Exclusive Economic Zone (EEZ) 
spans approximately 250,000 square miles of the Western Pacific Ocean, 
as large as California and Oregon combined.
CNMI: A Special Piece of American History
    Mention of the CNMI resonates differently with different people. 
For some, it conjures up a vision of beautiful beaches and warm 
temperatures. For others, it invokes memories of significant moments in 
American history, as the place where thousands of American soldiers 
died fighting a desperate battle during World War II and as the 
launching pad for the Enola Gay, the B-29 bomber that dropped the first 
atomic bomb on Hiroshima, ending the War in the Pacific and ushering in 
the atomic age.
    For the native Chamorros, Carolinians and other Americans, the CNMI 
represents the American dream for equality, yet the CNMI remains the 
last U.S. territory without formal representation in Congress. A 
successful experiment in democracy and a place where American free 
enterprise and capitalism flourish, the CNMI has developed economically 
and socially due to significant funding from the federal government. 
Some people, however, choose to focus more on mistakes we have made 
along the way, which we are doing our best to correct.
    Due to military victories during World War II in the Western 
Pacific, the U.S. gained control of the Northern Marianas, the 
Marshalls and the Eastern and Western Carolines. On July 18, 1947, 
under a joint resolution from the U.S. Congress, President Harry Truman 
approved a trusteeship agreement between the U.S. and the Security 
Council of the United Nations (U.N.). During the 30 years that 
followed, the U.S. provided the basis for the entities within the Trust 
Territory of the Pacific Islands (TTPI) to make a steady movement 
toward self-government or independence.
The Covenant
    After a failed 1969 plebiscite to reintegrate our islands with 
Guam, we began negotiating our own arrangement with the U.S. for either 
direct annexation or incorporation into the U.S. system. After several 
years of extensive negotiations, Ambassador F. Haydn Williams 
representing the interests of the U.S., and the members of the Marianas 
Political Status Commission (MPSC) representing the people of the 
Northern Mariana Islands, reached agreement on a political status as 
detailed in the Covenant.
    Following approval by the Commission and the NMI District, MPSC 
embarked on a comprehensive effort to educate residents of the Northern 
Marianas about the agreement. Once the agreement was overwhelmingly 
approved in 1975 by 78.8%, the process to gain Congressional approval 
began. I traveled to Washington many times over a two-year period to 
convince Members to support the Covenant (H.J.R. 549), which they did 
in 1976; President Gerald Ford signed it into law (Public Law 94-241) 
on March 24, 1976.
    In enacting the Covenant, Congress approved an unprecedented 
political union between the people of the Northern Mariana Islands and 
the United States. The Covenant placed the CNMI under U.S. Sovereignty 
while acknowledging its right to self-government. It established a 
number of historic and legal precedents:
    1.  The U.S. fulfilled its international obligation and discharged 
its responsibility as the Administering Authority of the former Trust 
Territory of the Pacific Islands under the terms of the Trusteeship 
Agreement between the Security Council of the U.N. and the U.S. 
guaranteeing the people of the Northern Mariana Islands the right to 
freely express their wishes for self-government;
    2.  The U.S. supported the desire of the people of the Northern 
Marianas to exercise their inalienable right to self-determination;
    3.  The people of the Northern Marianas announced to the world that 
they share the same goals and values found in the American system of 
government based upon the principles of government by the consent of 
the governed, individual freedom, and democracy; and
    4.  In the process, the U.S. gained enormous international prestige 
and credit as the only nation within the U.N. to have gained the 
aspiration of assimilation from a group of people under its 
guardianship.
    The Covenant became fully effective with President Ronald Reagan's 
Proclamation No. 5564 on November 3, 1986, calling for termination of 
the U.N. Trusteeship Agreement. On that same date under the authority 
of the Covenant, the residents of the NMI became U.S. citizens and all 
those born in the NMI since that date are U.S. citizens by birth. The 
U.N., through Security Council Resolution No. 638, acknowledged the 
termination of the Trust Territory of the Pacific Islands for the 
Northern Mariana Islands on December 22, 1990.
    The remaining island groups of the former Trust Territory, who are 
now known as the Marshall Islands, the Federated States of Micronesia 
(FSM), and Palau, are freely associated Republics with the United 
States. They have ambassadors to the U.S. and are members of the U.N. 
Their people are citizens of their own respective countries, not U.S. 
citizens.
The U.S. and CNMI: A Mutually Beneficial Relationship
    The CNMI's relationship with the U.S. has been mutually beneficial. 
Over the last 28 years the people of the Northern Marianas have 
benefitted enormously as American citizens of a vibrant self-governing 
political entity. The U.S. has also benefitted from the support, 
loyalty, patriotism, and affection of the people of the Northern 
Marianas.
    Our strategic location brought the U.S. to the Northern Marianas in 
World War II. Today, the islands continue to have vital significance to 
national defense and security. By virtue of the Covenant the U.S. 
secures a permanent and vital extension of its foreign affairs and 
defense needs in the Western Pacific and neighboring and strategic 
Asian countries. For example, two-thirds of our island, Tinian, and the 
entire island of Farallon de Medinilla (FDM), which includes more than 
18,000 acres of land, are leased to the U.S. for 100 years. Annual 
military exercises on Tinian prepare our armed forces for tropical 
conditions and amphibious assaults. FDM is the only live fire area in 
the Western Pacific that allows tactical surface- to-surface and air-
to-surface training exercises. These are critical to the overall 
readiness of American forces that maintain stability and peace in the 
region. In addition, four ships, stocked with the equipment needed to 
support Marine assault forces landing in Pacific and Middle East hot 
spots, are pre-positioned in Northern Mariana waters.
Support for a Nonvoting Delegate
    For nearly three decades, the people of the Northern Marianas have 
expressed their desire to be represented in Congress. As early as 1974, 
the MPSC requested a nonvoting Delegate to Congress, similar to the 
nonvoting Delegates representing Guam and the Virgin Islands. U.S. 
negotiators representing Presidents Nixon and Ford supported the 
request. U.S. House Leadership, however, discouraged the Northern 
Marianas from seeking a nonvoting Delegate in Congress, citing its 
small population as compared with the population in Guam and the Virgin 
Islands at the time those territories were granted nonvoting Delegates. 
In 1978, two years after Congress approved the Covenant, it granted a 
nonvoting Delegate to American Samoa with a resident population of only 
27,000. According to the U.S. Census Bureau, the population of the CNMI 
is currently 69,000. Attached to this testimony is a chart containing 
population data for each territory when it was provided with a 
Delegate. This chart clearly shows that Congress has not used 
population benchmarks as a condition for granting representation.
    In the early 1980's, President Reagan appointed a Commission on 
Federal Laws to recommend to Congress which laws should be made 
applicable to the Northern Marianas. In its final report, the 
Commission recommended that Congress provide for a Northern Marianas' 
nonvoting Delegate in the U.S. House of Representatives. The Commission 
reasoned that:
    <bullet>  Every other area within the American political system 
with a permanent population is represented in Congress;
    <bullet>  Northern Marianas' representation in Congress is in 
keeping with American traditions of participatory democracy and dispels 
any lingering taint of American colonialism over the islands; and
    <bullet>  A Northern Marianas nonvoting Delegate would effectively 
represent the needs and interests of the islands, relieving other 
Members of this responsibility.
    In 1985, the people of the Northern Marianas amended the 
Commonwealth Constitution to reflect the continuing intent of the 
voters to prepare the way for representation in Congress. The amendment 
allows for the term of office of the Resident Representative to be 
modified with an Act of Congress conferring nonvoting Delegate status 
on the Resident Representative.
    Mr. Chairman, I wish to point out that it is through our membership 
in the U.S. political family and the activities of this Congress that 
have fueled the desire to have nonvoting Delegate representation. Under 
the Covenant, the Congress has been granted power to make laws that the 
people of the Northern Mariana Islands must abide by. The Congress 
consistently includes the Northern Marianas with the other U.S. 
territories on such matters as public assistance and services, 
education, Social Security, Medicaid and Medicare, airports, 
transportation, veterans' benefits, national defense and homeland 
security. Every Committee in Congress is legislating for the 
territories. Similarly, all departments and agencies in the 
Administration oversee programs and funding that impact the Northern 
Marianas and other territories. However, while many laws are enacted 
and rules and regulations are promulgated on our behalf, we are 
excluded from these processes, which most definitely impact our well-
being.
    The people of the Northern Marianas recognize that they, like the 
constituents you represent, need an elected official in Washington. We 
elect a ``Resident Representative'' to serve in Washington, but the 
position is more like that of lobbyist than elected official. We have 
been relegated to the position of asking Congress to do for us what we 
cannot do for ourselves. As we are part of America and faced with 
issues similar to the rest of the country, it is imperative that we be 
included in the national legislative process.
    With me today are resolutions adopted by the 14th Commonwealth 
Legislature, the National Governors' Association (NGA), the California-
Pacific Annual Conference of the United Methodist Church, and the 
Association of Pacific Island Legislatures that seek Congress' approval 
to provide a nonvoting Delegate in the House of Representatives to 
represent the CNMI.
    Last June, I met with several congressional leaders in hopes of 
garnering support for a bill that would grant the CNMI a nonvoting 
Delegate. The meetings were constructive and provided valuable insight 
as to how some in Congress would like to shape such legislation, 
including issues and/or conditions they would like addressed. I would 
simply urge Members to review the historical precedent of prior 
legislation granting any territory with a nonvoting Delegate that was 
void of such matters. In addition I am including, as an attachment, a 
comprehensive list of U.S. Statutes that have provided nonvoting 
Delegates to territories to demonstrate this point.
Economic Development
    Because of the Northern Marianas' limited economic base and the 
desire to preserve indigenous control over the Islands' assets, control 
of minimum wage and immigration laws were negotiated and approved in 
the Covenant to be the responsibility of the CNMI government. The U.S. 
also extended to the CNMI the same duty-free and quota-free exemptions 
that are extended to the other U.S. territories under the Harmonized 
Tariff Schedule General Note 3(a)(iv). It was envisioned by the 
negotiators that in order for sustainable economic development to be 
possible in the CNMI, favorable local policies on immigration must be 
in place together with a locally enacted wage rate.
    The CNMI has two primary industries that support its economy and 
aid in development:
    <bullet>  Tourism. The Northern Marianas are to Japan as the 
Bahamas are to the U.S. Each year close to half-a-million tourists 
visit the islands. It is estimated that visitor expenditures will 
approach $600 million in 2004 and contribute 20% of the government's 
direct revenue; and
    <bullet>  Garment Industry. According to the Saipan Garment 
Manufacturers Association (SGMA), the garment industry expanded in the 
1990's--from 21 factories with $300 million in sales in 1992 and to 34 
factories with sales of $1.06 billion in 1999. Sales declined in 2000 
and continue to be weak with sales in 2002 totaling $831 million. In 
2003, there were only 29 factories still in business with sales 
estimated at $765 million. Taxes and fees from the garment industry 
account for about one-quarter of the government's direct revenues. It 
is expected that the garment industry will continue to decline with the 
impending expiration of WTO quotas on garments and textiles.
    Since tourism and textile manufacturing are fragile industries 
wholly dependent upon external circumstances beyond our control, we 
must look to other avenues for economic development. Valuable resources 
in the waters surrounding the Northern Marianas remain untapped. 
Because of volcanic activity that spawned the Marianas archipelago, the 
seabed is believed to be rich in minerals. Cobalt rich manganese crusts 
can be commercially mined once technology permits economically feasible 
and environmentally safe extraction. Fishery resources are likewise 
untapped, and like mining will require the investments of large U.S. 
companies to become a reality. We must also explore the advantages of 
our proximity to Asia, and seek those U.S. industries that wish to 
expand their markets into the East yet maintain offices and operate on 
U.S. soil.
    Our future well-being and the potential for economic development 
are critically dependent upon a secure and sound relationship with the 
U.S. A CNMI nonvoting Delegate in the U.S. House of Representatives 
would play a major role in facilitating these goals and aspirations.
Working for the People
    As a CNMI native, I have worked diligently over the past 30 years 
on behalf of our people to establish an enduring friendship and a 
permanent relationship with the United States. As a Senator in the 
former Congress of Micronesia, and then as a member of the Marianas 
Political Status Commission (MPSC), and as a negotiator of the Covenant 
to Establish a Commonwealth of the Northern Mariana Islands in 
Political Union with the United States of America, I actively pushed 
for commonwealth status for the CNMI while protecting the CNMI culture 
and way of life.
    I had the honor of serving two four-year terms as Lieutenant 
Governor of the CNMI. In this capacity, I oversaw the implementation of 
numerous capital improvement projects funded through the Covenant, the 
development of private-sector investments in hotels and tourism, and 
the first major initiative to develop industries that utilize the 
provisions of the Harmonized Tariff Schedule General Note 3(a)(iv). 
Although strengthening ties with the U.S. through mutual understanding 
and genuine cooperation was the highlight of my tenure as Lt. Governor.
    After more than 12 years in the private sector, I reentered public 
service. I ran for Resident Representative to improve our relationship 
with the federal government and our substandard public water supply. 
Since being elected two years ago, I have focused my efforts on growing 
and diversifying the CNMI's economy, expanding access to federally 
funded health benefits, and improving and exploring new educational and 
cultural exchange programs. While I have met with some success, a 
nonvoting Delegate seat would more effectively promote the interests of 
the people of the CNMI.
Conclusion
    Thank you again for the privilege to testify before your Committee. 
I urge you to strongly support a CNMI nonvoting Delegate bill. I look 
forward to working with you in the coming months. I would be happy to 
answer any questions. Thank you.
                                 ______
                                 
    The Chairman. At this time, I recognize Senator Adriano.

 STATEMENT OF JOAQUIN G. ADRIANO, SENATE PRESIDENT, CNMI SENATE

    Mr. Adriano. Thank you very much, Mr. Chairman. A warm hafa 
adai and good morning to you, Chairman Pombo and honorable 
members of this distinguished committee and panelists. For the 
record, Mr. Chairman, my name is Joaquin G. Adriano. I am the 
Senate President for the Northern Marianas Commonwealth 
Legislature. My testimony this morning summarizes my written 
testimony which has been filed with this committee, as 
requested. On behalf of my colleagues in the CNMI Senate, I 
would like to thank you, Mr. Chairman, for calling this hearing 
and inviting me to testify before you today.
    For more than two decades, the people of the CNMI sought 
representation in the House of Representatives as part of the 
American political family. We have asked to have a voice in the 
U.S. Congress. As United States citizens on the border of our 
great nation, we ask for the opportunity to hear and be heard 
in the whole Congress. However, we remain without a nonvoting 
Delegate.
    Historically, the U.S. Government has provided for 
representation by the delegates for this testimony. Our cousins 
in Guam have a nonvoting Delegate in the Congress for more than 
30 years. As an area of the United States, the Northern Mariana 
Islands should be afforded the same opportunity, Mr. Chairman.
    Our political ties with the United States date back to 
after World War II, when our islands were administered along 
with other islands, the District of Micronesia under the Trust 
Territory of the Pacific Islands. Except for the Northern 
Marianas, the other island districts under the trust territory 
eventually chose independence with free association with the 
United States. We in the Marianas, however, were determined to 
become a part of the United States.
    We did so in 1975, ratifying a covenant to establish the 
Commonwealth of the Northern Marianas in political union with 
the United States. We were granted full U.S. citizenship in 
1986.
    With this, Mr. Chairman, I appreciate our opportunity to 
appear before your committee to represent for a nonvoting 
Delegate. Nevertheless, our self only grows stronger to 
continue our request, for the time has come to give the CNMI a 
voice in Congress. Our CNMI Delegate Chair before you today 
speaks to that resolve on behalf of the people in the 
Commonwealth.
    Again, Mr. Chairman, I thank you for the opportunity to 
speak before your committee and I welcome any questions you 
have and your committee this morning. Thank you very much, Mr. 
Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Adriano follows:]

   Statement of The Honorable Joaquin G. Adriano. Senate President, 
   The Senate, Fourteenth Northern Marianas Commonwealth Legislature

PART I. History of Delegates in Congress.
    The term ``territory'' is a generic term for non-state areas of the 
United States. Delegates to Congress from the various territories of 
the United States have been a common phenomenon even before the 
adoption of the Constitution of the United States.
    Over 30 U.S. territories have been represented by non-voting 
delegates to the Congress before they became States of the Union. 
During the country's westward expansion in the 19th century, 
territorial status was seen as the eventual step toward statehood. The 
populations of the territories at the time representation in Congress 
was granted varied from as many as 5,000 to 260,000 individuals, mostly 
settlers from the several States.
    Like the majority of the States that preceded them, Alaska and 
Hawaii were U.S. territories for decades before finally becoming the 
49th and 50th States of the Union, respectively. In the latter part of 
the 19th century, the U.S. acquired the island territories of American 
Samoa, Guam, Puerto Rico, and the U.S. Virgin Islands. Eventually, even 
these island territories were granted a voice in the U.S. Congress.
    Presently, Guam, American Samoa, the U.S. Virgin Islands, and the 
District of Columbia are each represented in the U.S. House of 
Representatives by a non-voting delegate as authorized by federal 
statute. The delegates are elected by the voters in their territories 
to serve a two-year term, as are other House members.
    Puerto Rico is represented in the U.S. House of Representatives by 
a resident commissioner as authorized by House Rules. The resident 
commissioner is elected by voters in Puerto Rico to a four-year term. 
The Commonwealth of Puerto Rico, Guam, Virgin Islands and American 
Samoa have enjoyed the privilege of representation in the Congress for 
the last 20 to 30 some years.
    With the exception of voting on the Floor and other minor 
exceptions as provided in the House Rules, the delegates and the 
resident commissioner maintain the same rights and privileges as the 
other House members. History will show that, but for the presence and 
effective representation by the territorial delegates, Congress might 
not have addressed as expediently or thoroughly territorial issues of 
grave significance and impact.
    The United States' longstanding practice of allowing, if only 
limited, representation in Congress for the various territories 
recognizes the fundamental principles of representative government and 
its applicability to State and non-State areas. This practice, though 
not directly sanctioned under the U.S. Constitution, could hardly be 
construed as anything less than affording all U.S. citizens residing on 
American soil the opportunity to hear, and be heard, in a national law-
making context.
    Despite its long relationship with the United States since World 
War II, during the period under the administration of the U.S. Trust 
Territory of the Pacific Islands (Trust Territory), and as the newest 
member of the American political family since 1975, the Commonwealth of 
the Northern Mariana Islands (CNMI) is the only U.S. insular area with 
a permanent population without its own representative in Congress. The 
CNMI's modest success as a self-governing U.S. commonwealth in the 
areas of economic self-sufficiency and progressive political and social 
stability without the benefit of a non-voting delegate in Congress 
strongly favors the potential for greater success in those and other 
areas had the CNMI been granted a non-voting delegate.
PART II. Relevance of Having a Delegate for the CNMI.
    The CNMI's political relationship with the United States is 
embodied in the Covenant to Establish a Commonwealth of the Northern 
Mariana Islands in Political Union with the United States of America 
(Covenant). See U.S. Public Law 94-241, 90 Stat. 263. While the birth 
of each territory's historical relationship with the United States may 
be considered unique, the CNMI enjoys the distinction of being the only 
U.S. insular area whose citizens overwhelmingly voted in a solemn 
covenant to be a part of the United States and become U.S. citizens, 
transferring part of their sovereignty over to the U.S. in the areas of 
defense and foreign affairs, while retaining the right to self-
government.
    The Covenant was the end-result of years of discussion, scrutiny 
and careful negotiations amongst and between local leaders and 
representatives from various United States and Trust Territory 
agencies, including a few members of Congress. It was well understood 
then as it is now that the means by which the Northern Mariana Islands 
sought U.S. Commonwealth status was uncharted territory in the U.S. 
territorial experience.
    Nevertheless, the Covenant was ratified, establishing each party's 
rights and obligations in treaty-like fashion. Among the Covenant 
sections that became effective immediately upon ratification is Section 
901, which provides for a CNMI Resident Representative to the United 
States.
    Section 901, in full, provides:
        The Constitution or laws of the Northern Mariana Islands may 
        provide for the appointment or election of a Resident 
        Representative to the United States, whose term of office will 
        be two years, unless otherwise determined by local law, and who 
        will be entitled to receive official recognition as such 
        Representative by all of the departments and agencies of the 
        Government of the United States upon presentation through the 
        Department of State of a certificate of selection from the 
        Governor. The Representative must be a citizen and resident of 
        the Northern Mariana Islands, at least twenty-five years of 
        age, and, after termination of the Trusteeship Agreement, a 
        citizen of the United States.
    The emphasized language is almost identical to the text in Section 
891 of Title 4 of the United States Code that provides for Puerto 
Rico's Resident Commissioner to the United States. Yet, interestingly, 
while Puerto Rico's Resident Commissioner is the functional equivalent 
of Guam, Virgin Islands and American Samoa's non-voting delegates, 
Section 891 makes no mention of a role for the Resident Commissioner in 
Congress.
    Even prior to the Covenant's complete ratification, members of the 
Marianas Political Status Commission negotiating team sought a 
commitment from the United States to authorize a non-voting delegate to 
Congress to represent the CNMI. These early efforts were unsuccessful, 
the principal reason given was the small population in the Marianas 
compared with the population in Guam and the Virgin Islands at the time 
those territories were given non-voting delegates.
    Looking at the latest U.S. census data for the CNMI, the population 
criterion no longer is justified to deny the CNMI a non-voting 
delegate. Nor should it have been necessarily, since the CNMI's 
population of approximately 8,000 in 1976 was more than that of other 
U.S. mainland territories, as mentioned earlier, at the time they were 
given a non-voting delegate.
    However, the conditions in the Marianas in 1976, notwithstanding, 
subsequent local, regional, national and global issues of varying 
degrees of relevance and impact on the CNMI argue strongly for CNMI 
representation in the Congress. This can be assured only by giving the 
CNMI a non-voting delegate who can directly advocate the CNMI's 
interests in the national government.
    Most people in the CNMI would agree that no other local interest 
deserves greater attention and nurturing than the CNMI's economic 
potential and viability. Because of its close proximity to Asia, the 
CNMI's economy, especially the local tourism industry, rides on the 
economic swells of the much larger, economically advanced Asian 
countries.
    As a U.S. tropical vacation destination in the western Pacific, the 
CNMI is blessed with close access to the tourist markets of neighboring 
Asian countries, primarily Japan, Korea and China. The development of 
the CNMI's tourism industry is also attributable to collaborative and 
extensive marketing efforts by the CNMI Government, commercial airline 
and hotel companies, and other tourism advocacy groups.
    Still, much can and should be done to improve the CNMI's tourism. 
Through proper planning and environmental controls, the CNMI can become 
the number one destination of choice for travelers in the western 
Pacific region for business or pleasure.
    For example, in 1989, the U.S. residents in the municipality of 
Tinian and Aguiguan approved a local initiative to authorize gaming in 
the municipality. Following the construction of a world class gaming 
hotel and casino and the on-going federally funded expansion and 
upgrading Tinian's airport, Tinian is poised to attract large numbers 
of visitors in the near future.
    Aside from tourism, private garment manufacturing, introduced to 
the CNMI in the 1980s, generates exports to the U.S. in hundreds of 
millions of dollars and accounts for approximately 17 percent of CNMI 
Government revenues. The industry flourished in part because of the 
favorable tariff treatment of garment goods produced in the CNMI 
entering U.S. markets under Head Note 3A and the CNMI's control over 
local immigration and minimum wage, which provided for the relatively 
easy recruitment of alien workers to supplement the inadequate local 
labor pool.
    However, with the full application of World Trade Organization 
rules to international trade in textiles and clothing on January 1, 
2005, the quota-free advantage that the CNMI has enjoyed hitherto may 
be lost. Thereafter, the ability of the local garment industry to 
compete globally with other garment producing countries is [sic].
    Another equally important issue has been the desire of the CNMI 
Government for an increased U.S. military presence in the CNMI. To 
enable the United States to fulfill its defense obligations under the 
Covenant, the United States leased approximately two-thirds of the 
island of Tinian, lands surrounding Tanapag Harbor on the island of 
Saipan and the island of Farallon de Medinilla.
    Portions of the leased lands on Tinian and Saipan have been leased 
back to the CNMI for specific uses consistent with military 
requirements. The non-leaseback portions are used sporadically for 
various tactical assault training, while Farallon de Medinilla provides 
the only target for the U.S. Navy's live bombing exercises.
    In addition, U.S. Naval vessels on occasion port at Saipan for 
liberty call. The personal expenditures of the crew in the various 
retail establishments add new revenues to the CNMI economy.
    The fateful 9/11 attack, the War on Terror, the SARS scare, and 
other potential terrorist threats raise profound national security 
issues that concern every aspect of keeping America and her citizens 
safe within her borders and abroad. Although far removed from mainland 
America, the CNMI and the island of Guam are no less vulnerable to 
attack, and the lives and property of their residents must be 
protected. The appropriate response to these concerns inherently 
involves bilateral consultation between the State or Territory and the 
National Government.
    While security will continue to be a major concern, providing 
quality health care for the growing population in the CNMI is putting a 
strain on the scarce resources of public and private health care 
providers. This includes the high cost for off-island medical referral 
of patients to Hawaii that warrants consideration of alternative 
strategies, for example, the CNMI's specialization in the care and 
treatment of certain diseases, or provision of medical services, which 
could be made accessible to patients from less medically equipped 
island communities in the region.
    Similarly, the Islands' infrastructure, including the American 
Memorial Park, roads, public buildings, public utilities, 
telecommunications, and air and sea transportation, remain a priority. 
Capital improvement projects grants under section 702 of the Covenant 
have provided the bulk of funding dedicated to such projects. This 
funding is deemed vital to continue the infrastructure improvements so 
as to ensure the health, safety and well-being of the community.
PART III. Conclusion.
    The above and other difficult issues that are destined to arise, 
some unique to the CNMI or in common with the other States and 
Territories, cannot be resolved by a single government agency or level 
of government. Effective results happen because of thorough 
consultation and cooperation among government agencies and between 
governments.
    For the above reasons, a CNMI non-voting delegate to Congress 
should not be an option, but a requirement. Not only will the other 
members of Congress have quick access to a colleague from the CNMI on 
matters that relate to a CNMI interest, but also the people of the 
CNMI, just as the people of any other State or U.S. Territory, will 
have an advocate in Congress to ensure that their concerns and 
aspirations are heard.
                                 ______
                                 
    The Chairman. I thank the entire panel for your testimony.
    Just to start with, Governor, one of the issues that came 
up on our CODEL, I was wondering if you could straighten out 
for us. Where does the America's day actually begin?
    [Laughter.]
    The Chairman. You don't really have to answer that one.
    [Laughter.]
    Ms. Bordallo. I object to that, Mr. Chairman.
    [Laughter.]
    The Chairman. I figured you would. But Governor, how would 
you see your role or the Office of the Governor's role changing 
if we did have a nonvoting Delegate? How would it impact the 
role that you would play or that your office would play?
    Mr. Babauta. I see it being enhanced, Mr. Chairman, and 
strengthened as it will provide the CNMI the ability to 
communicate with a member of Congress who deals with the daily 
issues and business of the Congress right here in the halls of 
Congress. It just seems that that would be a tremendous added 
asset to the CNMI.
    The Chairman. The way that you look at it now in terms of 
policy and current Federal laws, how would it strengthen that 
relationship or what specific policies do you think would have 
the greatest impact if we were to move forward with this?
    Mr. Babauta. Mr. Chairman, I am not certain what your 
question is.
    The Chairman. In terms of specific policies, because when 
we were there, we talked about a lot of different issues and 
what role the U.S. Government plays and how that impacts 
decisions that are made in CNMI, and I am just wondering how 
this would strengthen or diminish that particular relationship 
in terms of the way that you are dealing with current laws 
right now.
    Mr. Babauta. Mr. Chairman, that is an excellent question. I 
think that the reason why we are here is really the essence of 
your question. The ability of a Delegate to be here to speak on 
behalf of CNMI on legislation that would affect the people and 
the government of the CNMI is going to give us that ability to 
understand and to influence the legislation that comes to the 
Congress. That, in itself, is invaluable and a process that we 
long to belong to.
    The Chairman. Mr. Tenorio, I know that you have actively 
worked on this issue along with a number of others in the time 
that I have been here, and I know that it is something that is 
extremely important to you and the people that you represent. 
But I would like to ask you the same question in terms of how 
do you see this impacting the citizens in CNMI.
    Mr. Tenorio. Thank you, Mr. Chairman. That is an excellent 
question and I would like to offer you some response. First of 
all, on a daily basis, our government and the people there deal 
with the Federal Government through many of its agencies. 
Agencies of the Federal Government will do things for us back 
at home and we, in return, will have to respond back.
    Communication is one area where we can really provide a 
better exchange between our government and the Federal 
Government here. The roles of a Delegate in Congress would 
certainly enhance the--just the fact that there is a member of 
Congress calling up the Federal agencies would be a very, very 
positive effect on the way things are administered back home, 
5,000 miles away.
    I feel that a lot of times, we lack the response of the 
Federal Government because we don't have somebody from Congress 
calling them up in the same kind of position as a member of 
Congress does. I find myself at times calling agencies and I 
will get a very polite response that they will call me back, 
but I feel that the services that should be provided to our 
people back home would be enhanced if we have the leverage and 
the Congressional posture to make people jump in the 
Administration to help us. At times, I just have to rely on 
their kindness to see that they help us or they respond to 
concerns that we raise.
    The Chairman. Thank you. I will just tell you, being a 
member of Congress, you don't always get your phone calls 
answered, either.
    [Laughter.]
    The Chairman. But hopefully, you will have a chance to find 
that one out on your own.
    [Laughter.]
    The Chairman. Mr. Miller?
    Mr. Miller. I will wait.
    The Chairman. Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman and Mr. Miller.
    I have a question for the Governor. The question is, how 
are you guaranteeing the reforms that you have enacted in the 
areas of immigration and labor matters?
    Mr. Babauta. That is an excellent question, Congresswoman, 
and like everything else in life, it is hard to guarantee 
anything nowadays. But what we are taking steps for in the NMI 
is instituting institutional changes that would put in place a 
system that is going to be difficult to change and a system 
that is going to be difficult to be corrupted. Let me just give 
you an example.
    We have had greater partnership between the CNMI and the 
Federal Government. We have reorganized the immigration office 
and it is now directly under the Office of the Attorney 
General, supervised by the Attorney General herself. We have 
automated the system in the immigration office so that we know 
exactly who we let into the CNMI and who we let out. We have 
developed standards through regulations and operating 
procedures that have to be adhered to and it will not do favors 
to people for special considerations and things of that nature.
    And so with this partnership with all the Federal agencies 
in the CNMI at all levels, it is going to make it very 
difficult for the changes in the rules and the reautomation 
that we have put in place, and that is probably the only 
guarantee that I can give you that it will be as permanent as 
it is.
    Ms. Bordallo. Thank you very much, Governor. I think that 
when the CODEL visited Saipan and Chairman Pombo saw it as well 
as the rest of us, there have been major changes in this area 
in the CNMI and I congratulate you on this. Thank you.
    Mr. Babauta. Thank you.
    The Chairman. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. I welcome the panel 
and my apologies for coming late to the hearing. I was involved 
in another hearing in the Labor Committee.
    I want to welcome this panel and just say that I have had a 
fairly long relationship during my time in the Congress with 
the CNMI and with the Governor. I must just tell the members of 
this committee, because I know that you traveled out to Saipan, 
that I have as much respect for this Governor as I have had for 
any public official that I have met. I think that had you 
visited the Saipan that I visited a number of years ago, this 
hearing would never be held.
    But this Administration has sought to make a series of 
changes, as he was just saying in response to your questions, 
to make systematic changes as opposed to a series of sort of ad 
hoc promises that very often were made to us and then sometimes 
we were getting ready to take action in this committee and we 
would find out in the middle of the hearing that it was 
reversed already.
    I think that when we are talking about providing the status 
of a Delegate to the Congress of the United States, we have to 
ask, what are the underlying conditions? CNMI has a very unique 
situation with a strongly dominant industry that is staffed by 
guest workers. More than half of the island is foreign workers, 
and that raised in the past and currently continues to raise a 
series of considerations about the protections of the rights of 
those workers, about our national immigration policy, since 
there is an exemption from our immigration laws in the CNMI, 
the pay and the conditions under which those workers are hired.
    My discussions with the Governor and rather hard-nosed 
Attorney General have led me to believe that the--and I am 
sorry I wasn't able to go on the CODEL, but have led me to 
believe that, in fact, many of these changes have been made. 
But I also want to say on the public record that I continue to 
have serious concerns about whether or not we can have this 
kind of exemption in our national immigration laws that exists 
here.
    But I say that, and then in the next sentence I must say 
that my conversations with this Administration and the Governor 
have led me to believe that it is worth continuing to discuss 
and to talk about because of the kinds of changes and what some 
of the members of Congress have said they witnessed on the 
CODEL.
    So I want to make it very clear that my concerns continue 
in the areas of the minimum wage, of immigration, of what was 
maybe more of a past practice, but certainly of labor 
contractors that very often misled a number of these foreign 
workers into really tragic situations for them and their 
families. Those concerns continue.
    I would like to repeat the question that was just asked by 
Ms. Bordallo, and that is, Mr. Adriano, to you as the 
representative of the Senate. I am looking for assurances that 
these changes are, in fact, systematic, that it really is about 
a new protocol for the way of conducting business and the 
economy in CNMI. I just wonder if you might enlighten us as to 
the attitude of the Senate and their views of these. I know 
these have been the subject of pitched battles from time to 
time, as they are here in the Congress of the United States, so 
it is not a question of whether everybody agrees or not. If you 
might tell us what you think the attitude is about the changes 
and whether people see these as permanent changes and changes 
that would continue on and remain in place.
    Mr. Adriano. Thank you, Congressman Miller. The leadership 
of the Senate and the House and Administration, including the 
Washington Representative, has gone so far as sitting down. The 
changes to allow different, or in terms of the alien and so 
forth with reform should come before the Senate and the House 
and never under my leadership or the House will permit to 
change anything without having to have the Administration and 
the House and the Senate come together in one decision.
    The Chairman. Excuse me. If I could recognize Mr. Flake for 
a minute--
    Mr. Miller. Sure.
    The Chairman. Mr. Flake?
    Mr. Flake. Thank you, Mr. Chairman. I just want to 
apologize for having two other markups going on at the same 
time and I have to run to one very, very quickly. I just want 
to say how pleased I am. I read all the testimony and I will 
get to one question here quickly, but I was able to go on the 
CODEL. As I mentioned, I was extremely impressed with the steps 
that CNMI has taken, particularly under Governor Babauta, in 
immigration and labor issues. I know that they have made great 
effort to actually do what they know they need to do. I just 
wish that we could have stayed longer. I think the greeting 
half a day kind of explains how long we had on each island, as 
well.
    [Laughter.]
    Mr. Flake. Next time, we hope to get a whole day somewhere.
    [Laughter.]
    Mr. Flake. But Governor Babauta, it is mentioned with 
regard to minimum wage, I think that you said that the industry 
sector minimum wage that American Samoa has might be something 
that might work in the future for CNMI. Can you elaborate on 
that?
    Mr. Babauta. Thank you, Congressman. In the past, we have 
been exploring how to deal with the issue of minimum wage. As 
you know, the business community in CNMI adamantly opposed the 
increase of the minimum wage. The garment industry has opposed 
it. But I think that we have been coming together as a 
community and that I personally, myself, support a gradual 
increase in the minimum wage.
    To demonstrate that I support that fully, I have taken it 
upon myself to require that all construction activities funded 
by Federal funds pay Federal minimum wage. I instituted that 
two or 3 months ago, and that is currently in effect. And so 
all workers now who are working under federally funded programs 
receive the Federal minimum wage.
    Mr. Flake. Thank you. I was impressed when we toured the 
facility, the garment facility. I think it was mentioned by 
some of the workers there that jobs that they had left in China 
or that they might have in China, for those who were coming 
from China, they were earning about eight times as much in the 
CNMI as they were there, and so I understand the pressures that 
you have to deal with.
    Again, I just want to thank you for coming here and thank 
you all for the steps that you have taken, and also in 
particular for the commitment that CNMI and the U.S. citizens 
there are making to our nation's defense, and some of those 
were outlined in your testimony. I just appreciate that and you 
deserve to have somebody here who deserves to be a colleague, 
somebody that can be here, or whoever is elected to come here 
as a colleague and to be able to represent the people from 
CNMI. Thank you much.
    Mr. Babauta. Thank you, sir.
    The Chairman. Further questions?
    Mr. Miller. If I could just finish--
    The Chairman. Mr. Miller?
    Mr. Miller. Thank you. On the points I just made, I think I 
just want to make it clear that I would certainly like to 
continue to have those discussions, Governor, with you and with 
your administration and with the Legislature.
    Just a follow-up on Mr. Flake's point and your response to 
him. Those jobs, those federally funded jobs or where there are 
Federal funds included in those jobs, those would also be 
available to non-resident workers?
    Mr. Babauta. Yes, sir.
    Mr. Miller. Thank you.
    Mr. Babauta. And in fact, what it has done, if I may add, 
Congressman, is that it has invited locals to the 
constructionsite seeking jobs from the construction activities 
that are going on in CNMI.
    Mr. Miller. Thank you.
    Mr. Babauta. Which is a very positive turnaround.
    The Chairman. Thank you very much. Ms. Bordallo?
    Ms. Bordallo. This is a rumor, but I wanted to substantiate 
it. Regarding immigration controls, is there any basis for the 
concern that Chinese workers in the CNMI are migrating to Guam 
by boat rather than returning to China, and do you have any 
data that shows that this is true or false? Governor?
    Mr. Babauta. The rumors that Chinese workers are migrating 
to Guam is not true. There have been instances in which, in the 
past, and it is probably on one or two occasions only, were 
attempts made by Chinese nationals escaping from Saipan to go 
there. But those were interdicted and caught and have been 
dealt with swiftly. So if you call one or two instances rumors 
of Chinese nationals escaping to Guam, those were the two 
incidents, or one that I know of, that have taken place.
    Ms. Bordallo. Thank you, Governor, for the clarification.
    The Chairman. Thank you very much. I want to thank this 
panel for your testimony. If there are any further questions, 
Pete, that any of the members of the Committee have, or 
Governor, they will be presented to you in writing, if you can 
answer those in writing so that they can be included in the 
committee process. But we will get any further questions that 
anybody has over to you.
    Mr. Babauta. Thank you.
    The Chairman. Thank you very much.
    Mr. Babauta. Thanks again.
    Mr. Tenorio. Thank you very much, Mr. Chairman.
    The Chairman. I would like at this time to call up our 
third panel. We are fortunate to have with us today the former 
Director of what at the time was called the Office of 
Territories, which is now the Office of Insular Affairs. We are 
welcoming back to the Committee Mrs. Ruth Van Cleve, who served 
both the Johnson and the Carter Administrations.
    If I could just have you stand and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the statements made and the responses given will 
be the whole truth and nothing but the truth, so help you, God?
    Mrs. Van Cleve. I do.
    The Chairman. Thank you very much. Let the record show she 
answered in the affirmative.
    Welcome to the Committee. It is a pleasure to have you here 
today. If you are ready to begin your testimony, you may.

  STATEMENT OF RUTH VAN CLEVE, FORMER ASSISTANT SOLICITOR FOR 
     TERRITORIES AND DIRECTOR, OFFICE OF TERRITORIES, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mrs. Van Cleve. I am indeed, Mr. Chairman, but I should 
first say hafa adai.
    [Laughter.]
    Mrs. Van Cleve. Mr. Chairman, I have filed a brief 
statement with the Committee. I can summarize it even more 
briefly if that would be your pleasure.
    I was asked to consider and speak to the history of 
Delegates to the Congress from the territories and I am glad to 
do that. One can best do that by beginning in the 19th century, 
returning to the time when all of the territories were part of 
the contiguous United States. At that time, the Congress turned 
to them one by one as they developed sufficient population, 
sufficient economic activity and aspirations.
    The Congress accorded to these areas the status of 
organized, incorporated territories. They were organized by 
means of the enactment of an organic act. They were 
incorporated because the Congress extended to the territory the 
provisions of the U.S. Constitution. That was an important step 
because it was viewed as a matter of law as a first step toward 
Statehood. The act of incorporation was understood to carry 
with it an implied promise of ultimate Statehood.
    As these territories were the subject of organic acts, also 
typically they received at the time of organic legislation a 
Delegate, a nonvoting Delegate to the U.S. Congress. So that 
was the pattern that had been established with respect to the 
contiguous United States in the 19th century.
    When United States commenced to acquire noncontiguous 
areas, the pattern shifted and the tidiness essentially 
departed. Our first noncontiguous acquisition was, of course, 
Alaska, 1867, by purchase. The Congress did very little about 
Alaska until 1906, when it accorded to Alaska a nonvoting 
Delegate. This was prior to organic legislation, which occurred 
in 1912, but it did take that step that was important of 
sending a nonvoting Delegate from Alaska to the Congress.
    In 1912, the Congress enacted organic legislation for 
Alaska and specifically extended the provisions of the United 
States Constitution. The Constitution had been held by the 
judicial branch to have been extended to Alaska under the 
treaty of purchase, but that is a footnote that probably is not 
now relevant. The treaty of purchase also accorded citizenship 
to the people of Alaska, except, and this is a quote, for ``the 
uncivilized native tribes.'' So that explains Alaska.
    In 1900 or thereabouts, we acquired further noncontiguous 
areas. The Treaty of Peace with Spain following the Spanish-
American War gave to the United States, among other areas, 
Puerto Rico and Guam. Puerto Rico was the subject of early 
legislation. The Congress passed a kind of organic act in 1900. 
It conferred so few privileges and rights upon the people of 
Puerto Rico that it could hardly be called an organic act, but 
it did do that. In 1917, the Congress passed a genuine organic 
act. At that time, it did not incorporate Puerto Rico into the 
United States. The Constitution has never been expressly 
extended, and that is important in terms of Statehood 
considerations because it was important, of course, in the case 
of Alaska and Hawaii.
    Puerto Rico has never been incorporated. It was organized 
in 1917. Its people became citizens in 1917 and it received the 
equivalent of a nonvoting Delegate, though he was called a 
Resident Commissioner. His job is described a little 
differently from the Delegates. He is said to be entitled to 
recognition by the departments and agencies of the United 
States as a Commissioner, which suggests executive powers as 
well as legislative powers, but he, the Resident Commissioner, 
has always functioned very much like the nonvoting Delegates 
from the unincorporated territories. That occurred also in 
1917, and, of course, a Resident Commissioner continues today 
in roughly the same form.
    As for Guam, we acquired it under the same Treaty of Paris, 
but Congress paid very little attention to Guam until 1950, at 
which time it enacted organic legislation. It also did not 
incorporate Guam into the Union, but it made Guam an organized, 
unincorporated territory. Its people in 1950 became citizens. 
However, Guam was not accorded a nonvoting Delegate until many 
years later, 1972, thus the untidiness of the pattern to which 
I referred earlier.
    The Virgin Islands, acquired by purchase in 1917, had a 
somewhat different history. One of the joys of the territories 
is that each is unique. Each has a special history for one 
reason or another. But in the case of the Virgin Islands, they 
were purchased in 1917. Their people became citizens in 1927. 
In 1936, Congress passed the first organic act. In 1954, it 
revised the organic act appreciably and the revised organic act 
remains the basic governmental structure for the Virgin Islands 
today.
    In the same Act as the Congress chose to give Guam a 
nonvoting Delegate, it did the same in 1972 for the Virgin 
Islands. That then left only American Samoa unrepresented, and 
American Samoa has never been the subject of an organic act. 
Its people, as I know this committee is well aware, are not 
citizens but nationals. They owe permanent allegiance to the 
United States, but they are deprived of certain rights that are 
given only to citizens by statute.
    It was in 1978 that the Congress enacted nonvoting Delegate 
legislation for Samoa, and it is interesting that in the 
initial enactment, which I believe was October 31, 1978, the 
requirement was imposed that the nonvoting Delegate from Samoa 
be a U.S. citizen. Many Samoans have become citizens. I don't 
think anyone has a count. I used to hear either 10 percent or 
25 percent of the Samoan population were citizens. I don't 
think anybody really knows, but it is in that range. It is easy 
for an American Samoan to become a citizen. He needs only to 
appear before a Federal judge and take a suitable oath because 
residence in Samoa counts as residence for naturalization 
purposes, so it is very, very easy indeed, no questions asked.
    The first statute required that the Samoa Delegate be a 
citizen of the U.S. and someone then said, oops, because that 
would bar so many Samoans from running for office. Three days 
later, the correction was made and the statute then was made to 
provide, as it still does, that the Delegate from Samoa need 
only owe allegiance to the United States, and that is the 
language that comprehends nationals, and citizens, of course, 
as well.
    So what I have told you is how all of the first contiguous 
and then noncontiguous areas became--were the subject of 
Representatives in the Congress, nonvoting Delegates, except, 
of course, for the Northern Marianas, about which this hearing 
has been convened.
    I was also asked in my invitation to appear to speak to the 
relevance of Delegates as it considers issues arising in the 
Northern Marianas. I can't speak of any current issues. I have 
long since been retired and I speak really as a retired private 
citizen at this point. I have not retired from that status.
    I think in the current lingo, giving the Northern Marianas 
a nonvoting Representative would be win-win. The Congress 
surely profits from having an authentic, popularly elected 
voice representing an offshore area. These folks can speak, as 
Ms. Bordallo has so often done, with much greater credibility 
than a lobbyist. The win-win continues, as others have so 
eloquently stated, the win-win continues because it does give 
some minimal representation to people in an offshore area on a 
subject which is--on every subject that is of importance to 
them on the national level. This is consistent with the 
democratic process.
    We have been pretty good in the Interior Department and in 
the U.S. Government in bringing the democratic process to 
offshore areas. We have been slow, but we have done it. This 
would be one more step consistent with our long-term 
aspiration.
    And that, Mr. Chairman, concludes my quick summary.
    The Chairman. Thank you very much. I have been told that 
you are a walking encyclopedia on these issues and we greatly 
appreciate your expertise in being here.
    [The prepared statement of Mrs. Van Cleve follows:]

             Statement of Ruth Van Cleve, Former Director, 
       Office of Insular Affairs, U.S. Department of the Interior

    Mr. Chairman and Members of the Committee
    It is my pleasure to accept your invitation to appear before you 
today to provide information on the subject of the representation in 
the United States Congress of non-voting Delegates from offshore areas.
    Perhaps I might begin by speaking of the history of Delegates, 
beginning in the 19th century, from political entities in the 
contiguous United States. At whatever time it seemed appropriate in 
terms of the population, the economic activity, and the aspirations of 
the inhabitants, the Congress by law conferred upon such mainland 
political entities the status of incorporated territories. It did so by 
enacting an organic act, and in that act by explicitly extending to the 
area the provisions of the United States Constitution. That action was 
understood, as a matter of law, to launch the incorporated territory on 
the road to Statehood. That is, the act of incorporation carried with 
it an implied promise of ultimate Statehood. And indeed, all of the 
incorporated territories (generally referred to as ``Territories'') of 
the contiguous United States were ultimately admitted to the Union. 
Typically, organic acts for these incorporated territories also 
provided for the election of a non-voting Delegate to represent the 
people of the Territory in the Congress.
    This neat pattern of political development was disrupted around the 
turn of the century, and in fact a bit earlier, by our acquisition of 
noncontiguous territories. The first was Alaska, acquired by purchase 
in 1867. An organic act for Alaska was not enacted until 1912. Before 
that, Alaska was governed under various stop-gap, short-term measures. 
But even before enactment of its organic act, Alaska was accorded a 
non-voting Delegate in the Congress. This occurred in 1906. The people 
of Alaska were collectively naturalized by the Treaty of 1867, except, 
the Treaty provided, for ``the uncivilized native tribes.'' They 
achieved citizenship in 1924.
    Hawaii, on the other hand, followed the mainland precedent. Always 
the most advanced of the offshore areas, Hawaii was, shortly after its 
annexation in 1898, the subject of an organic act in 1900. By that act 
the people of Hawaii became U.S. citizens, the Constitution was 
extended to Hawaii, so it became an incorporated territory, and Hawaii 
was accorded. a non-voting Delegate.
    At about the same time, the United States acquired new areas under 
the Treaty of Paris in 1898, following the Spanish American War. Puerto 
Rico and Guam were ceded to the United States from Spain. Congress 
legislated for Puerto Rico in 1900, but the enactment granted such 
limited powers of self-government to the people of Puerto-Rico that it 
could not quite qualify as an organic act. A genuine organic act was 
enacted for Puerto Rico in 1917, at which time its people were made 
citizens of the United States. And at that time, provision was made for 
the equivalent of a non-voting Delegate, but he was termed the 
``Resident Commissioner.'' The Resident Commissioner from Puerto Rico 
was and is entitled to receive official recognition as such 
commissioner by all of the departments and agencies of the Government 
of the United States, upon presentation, through the Department of 
State, of a certificate of election by the Governor of Puerto Rico'' 
(48 U.S.C. sec. 891). This language suggests that the Resident 
Commissioner has executive as well as legislative authority, but it 
appears that he has always acted in the same manner as the Delegates 
from other offshore areas. The provisions of the United States 
Constitution were not extended to Puerto Rico by either the 1900 or the 
1917 act, or by any later Federal statute -so Puerto Rico was 
unincorporated, and not given a promise of later Statehood.
    The Virgin Islands, Guam, and American Samoa remain, and they have 
followed different routes--but all are now represented by non-voting 
Delegates. The Virgin Islands, acquired by purchase in 1917, was the 
subject of an organic act in 1936. That 1936 act was substantially 
revised in 1954, and the Revised Organic Act continues today. But it 
was a separate enactment in 1972 that provided for the Virgin Islands 
Delegate. Somewhat similarly, Guam was the subject of an organic act in 
1950--the first notable Congressional recognition of Guam since its 
acquisition in 1898--but its Delegate dates from the same 1972 
enactment. Guamanians became United States citizens in 1950; Virgin 
Islanders, for the most part, in 1927.
    American Samoa differs from all of the rest. The United States 
acquired Samoa by voluntary acts of cession by Samoan chiefs, in 1900 
and 1904. Samoa has no organic act. It is governed by a constitution of 
its own adoption, approved by the Secretary of the Interior under the 
general authority conferred upon him by the Congress. The people of 
American Samoa are nationals but not citizens of the United States--the 
only category of persons who have that status today. Samoa's Delegate 
was authorized by Act of Congress in 1978. Interestingly, when first 
enacted the Samoa Delegate law required that Samoa's Delegate be a 
citizen of the United States. A few days later, that law was amended to 
allow him to be a national that is, the Delegate must merely ``owe 
allegiance to the United States''.
    As a result of the foregoing developments, the populated offshore 
areas of the United States all currently have non-voting representation 
in the Congress--except for the Northern Marianas. The language quoted 
above with respect to Puerto Rico's Resident Commissioner--his 
entitlement to recognition by Federal departments and agencies--is 
duplicated in the job description of the Northern Marianas Resident 
Representative in section 901 of the Northern Marianas Covenant. If the 
Resident Representative were permitted also to sit in the Congress, the 
historic pattern of development of Congressional representatives for 
offshore areas would be completed.
    Your invitation to me to appear asks also that I speak to the 
relevance of having a Northern Marianas Delegate present, as the 
Committee and the Congress deal with issues of importance to the 
Commonwealth. As a retiree of some years standing, I cannot speak with 
authority about current Northern Mariana issues, but I can say that an 
official voice from the Northern Marianas would unquestionably have 
singular value in the legislative process. It is uniformly understood 
that the Delegates from the Virgin Islands, Guam, and American Samoa, 
and the Resident Commissioner from Puerto Rico, have contributed 
materially to the Committee and the Congress as they consider 
legislation affecting those areas. They contribute wisdom that could 
not otherwise be available.
    But in addition, because of their Delegates, the people of those 
noncontiguous areas have been afforded some measure of representation 
in the Congress. Obviously it falls short of the effectiveness accorded 
representatives of the States of the Union, but a voice from these 
territories is consistent with the United States' long-term purpose of 
extending the democratic process to the offshore areas.
    Thank you.
                                 ______
                                 
    The Chairman. When we went through this, and it is 
interesting to hear what the history is dealing with the 
contiguous territories and then the offshore territories, 
generally, what kind of requirements or changes have been 
attached to the granting of a Delegate status, or for that 
matter, has it ever really happened before where we went in 
later to grant a Delegate as a separate act? Or was it always 
done when the generic act was done and a Delegate was appointed 
as part of that process?
    Mrs. Van Cleve. I think there have been several instances--
Guam is one of them, the Virgin Islands is another--where the 
Delegate legislation succeeded other legislation by quite a few 
years. The interesting phenomenon is Alaska, where Delegate 
legislation preceded just about everything else. But as I 
observed, the joy of the territories is the uniqueness of each 
one.
    I don't think there have ever been enunciated tests for 
Delegates. There certainly have been tests for Statehood. My 
impression is that a kind of lukewarm version of the Statehood 
tests has tended to apply to the matter of Delegates. The 
aspirations of the people are certainly of some importance. The 
order of the instrumentality, an organized territory that can 
hold elections and send people forward in the standard 
democratic way is important.
    So I think I would say that, in general, there has been 
some deference paid in Delegate legislation to the same tests 
as applied to Statehood. That is, are they ready? Do they 
aspire to Statehood? Do they have an orderly local government? 
In the case of Statehood, the further test has always been have 
they sufficient resources to support Statehood? That obviously 
would not apply to the Delegates.
    But I think this is not--there is no written standard by 
which this test needs to be met.
    The Chairman. So there is no generic legislation that has 
ever been used? It has been more or less dealt with differently 
on each one?
    Mrs. Van Cleve. Ad hoc, correct. Yes. Unique.
    The Chairman. In what I guess is the most recent dealing 
with American Samoa, were there certain tests that were put in 
place with that?
    Mrs. Van Cleve. I don't think so. I think there was a 
little hesitancy about according a Delegate. I think this is 
corridor conversation, it is nothing that is a matter of public 
record, but I think there was some hesitancy in Samoa's case 
because its people are largely not citizens and it has been 
thought usual, certainly, and appropriate that members of the 
Congress be citizens of the United States. I think every Samoa 
Delegate that I know of, and this would be subject to check, 
has been naturalized, has become a citizen. As I said earlier, 
it is not hard to do at all. But I think that that gave pause, 
but obviously the pause was overcome.
    The Chairman. In reference to Guam, were there certain 
tests that were put in place?
    Mrs. Van Cleve. Nothing articulated that I am aware of. 
Guam had an informal Delegate for some years before he became 
elected as such. This was the celebrated Antonio B. Wonpat, who 
represented Guam splendidly for a very long time, and he did so 
out of a Washington office much as the Resident Representative 
from the Northern Marianas does, though he had no status. He 
did not have the status of the Northern Marianas 
Representative.
    The Chairman. So I guess when they granted the Delegate 
status, there weren't, to your memory, there weren't a list of 
things that they had to accomplish first? It was just 
determined that either they did get it or they didn't get it 
based on what was happening in the territory at the time?
    Mrs. Van Cleve. That is correct, Mr. Chairman. That is my 
understanding.
    The Chairman. Thank you very much.
    Ms. Bordallo?
    Ms. Bordallo. I just have a closing remark, Mr. Chairman. I 
want to congratulate Ruth Van Cleve. You are very right. She is 
a walking encyclopedia of history. I want you to know, Mr. 
Chairman, that Mrs. Van Cleve has come out of retirement, so to 
speak, and she is now serving on our War Claims Commission, the 
Guam War Claims Commission. She has made a trip out to Guam and 
just about a week ago we had a very interesting meeting. I want 
to thank you, Ruth, for dedicating your service and your love 
for the people of the Pacific and serving on that commission.
    Mr. Chairman, I want to go on record to thank you, because 
for however short it has been, I have made history today. I am 
a Ranking Member of the Resources Committee--
    [Laughter.]
    Ms. Bordallo.--and it probably will never happen again.
    [Laughter.]
    Ms. Bordallo. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mrs. Van Cleve, I know as we work 
our way through this, we are going to have further questions of 
you, and if you would avail yourself to the Committee of what 
your sense of history and knowledge on these topics, I know it 
would be greatly appreciated by myself and I know by the staff, 
if you would help us in that regard.
    Mrs. Van Cleve. I will be delighted to do that in any way I 
can.
    The Chairman. Thank you very much for being here today.
    Mrs. Van Cleve. Thank you.
    The Chairman. I wanted to, in conclusion, thank the 
witnesses, all of the witnesses, for their valuable testimony 
and the members of the Committee for participating in this 
hearing today. As I have said in the past, there may be 
additional questions that members of the Committee have that 
they would like to submit to you in writing, if any of the 
witnesses could answer those in a timely fashion so that we can 
include it as part of the hearing record.
    Again, I want to thank the panelists who made the effort to 
travel here and to participate in this hearing. As I said in 
the past, having been there now, I know just how long of a trip 
that is and how difficult it is and I greatly appreciate it. I 
look forward to working with all of you in the future and 
moving forward on this legislation. I thank you very much for 
the effort that you put in.
    If there is no further business before the Committee, then 
the hearing is adjourned.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
